<html>
<title> - MAKING HOMELAND SECURITY INTELLIGENCE WORK FOR STATE, LOCAL, AND TRIBAL PARTNERS: AN INTERAGENCY THREAT ASSESSMENT COORDINATION GROUP (ITACG) PROGRESS REPORT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
MAKING HOMELAND SECURITY INTELLIGENCE WORK FOR STATE, LOCAL, AND TRIBAL 
 PARTNERS: AN INTERAGENCY THREAT ASSESSMENT COORDINATION GROUP (ITACG) 
                            PROGRESS REPORT 

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING,
                     AND TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 13, 2008

                               __________

                           Serial No. 110-101

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

43-955 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





































                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas                 Candice S. Miller, Michigan
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

       Jessica Herrera-Flanigan, Staff Director & General Counsel

                     Rosaline Cohen, Chief Counsel

                     Michael Twinchek, Chief Clerk

                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                     Jane Harman, California, Chair

Norman D. Dicks, Washington          David G. Reichert, Washington
James R. Langevin, Rhode Island      Christopher Shays, Connecticut
Christopher P. Carney, Pennsylvania  Charles W. Dent, Pennsylvania
Ed Perlmutter, Colorado              Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex  Officio)
Officio)

                 Thomas M. Finan, Director and Counsel

                        Brandon Declet, Counsel

                   Natalie Nixon, Deputy Chief Clerk

        Deron McElroy, Minority Senior Professional Staff Member

                                  (II)




































                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Jane Harman, a Representative in Congress From the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment.............     1
The Honorable David G. Reichert, a Representative in Congress 
  From the State of Washington, and Ranking Member, Subcommittee 
  on Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     3

                               Witnesses

Mr. Thomas E. ``Ted'' McNamara, Program Manager, Information 
  Sharing Environment (PM-ISE), Office of the Director of 
  National Intelligence:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Mr. Michael E. Leiter, Acting Director, National Counterterrorism 
  Center (NCTC):
  Oral Statement.................................................    16
  Prepared Statement.............................................    18
Mr. Charles E. Allen, Under Secretary for Intelligence and 
  Analysis, Department of Homeland Security:
  Oral Statement.................................................    22
  Prepared Statement.............................................    24
Mr. Wayne M. Murphy, Assistant Director, Directorate of 
  Intelligence, Federal Bureau of Investigation, Department of 
  Justice:
  Oral Statement.................................................    27
  Prepared Statement.............................................    29


MAKING HOMELAND SECURITY INTELLIGENCE WORK FOR STATE, LOCAL, AND TRIBAL 
 PARTNERS: AN INTERAGENCY THREAT ASSESSMENT COORDINATION GROUP (ITACG) 
                            PROGRESS REPORT

                              ----------                              


                        Thursday, March 13, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
    Subcommittee on Intelligence, Information Sharing, and 
                                 Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:08 a.m., in 
Room 311, Cannon House Office Building, Hon. Jane Harman [chair 
of the subcommittee] presiding.
    Present: Representatives Harman and Reichert.
    Ms. Harman [presiding]. The subcommittee will come to 
order.
    The subcommittee is meeting today to receive testimony on 
``Making Homeland Security Intelligence Work for State, Local 
and Tribal Partners: an Interagency Threat Assessment 
Coordination Group, ITACG, Progress Report''.
    Good morning. Back at the start of the 110th Congress, this 
subcommittee made it a priority to represent the views of State 
and local law enforcement partners. We wanted to peer through 
the looking glass from the bottom up.
    Nothing frustrates me more than the stovepipe culture and 
battles over turf that plague our Government. I think no one 
has missed this grandmother's rant on that subject. The 
inability of our national security agencies to share 
intelligence information was one of the root causes of our 
failure to stop the 9/11 attacks.
    Knocking down stovepipes was the goal of much of the post-
9/11 legislation, including the Intelligence Reform Act, in 
which I played a fairly significant role, and the Homeland 
Security Act. When it became clear that we face these problems 
in DHS, and still face these problems in DHS, Congress passed 
legislation last summer that embraced the recommendations of 
the 9/11 commission.
    The 9/11 Act was the earthquake needed to change the 
ingrained culture of our intelligence bureaucracy. Since I come 
from California, I know how powerful earthquakes can be, and I 
hope we don't need any more earthquakes to keep us moving 
forward. Changing cultures is hard. It has been a very slow 
process, but I see a break in the clouds, especially through 
section 521 of the 
9/11 Act, which established the ITACG at the National 
Counterterrorism Center.
    The ITACG gives State and local partners a voice and an 
opportunity to help create intelligence products that make 
sense to their communities. Over the course of the next few 
months, the small staff of the ITACG will continue to work hard 
to improve information sharing.
    I think, and I think our witnesses will confirm today, that 
the chances for success are increasing. I have changed my mind 
about this. I have spoken to our witnesses over the course of 
the last few months, and I see real signs of progress. But now 
that we are beginning to make progress, we have to continue to 
make progress, and we have to continue to define carefully what 
are the roles and responsibilities of the organizations that 
our witnesses head.
    ITACG is tasked with providing America alerts, warnings, 
and notifications of terrorist threats. It will also provide 
strategic assessments of these threats. Big deal, strategic 
assessments. We don't just want to have a number of false 
alarms. We want to have true understanding in the State, local 
and tribal communities about what the information they are 
receiving means, what they should look for, and what they 
should do.
    Law enforcement, as everybody knows, stands on America's 
front lines. They know how threats may affect their individual 
towns and cities. We need to help them understand how the ITACG 
can lend a hand. The ITACG has to be marketed more 
aggressively. Its products must be effectively and efficiently 
disseminated. A ``tagline'' note on ITACG products will help, 
and I understand from Ambassador McNamara that there is such a 
thing now, but maybe it needs to be put in a form that is very 
easy to notice.
    State and local partners must also understand how to access 
the information ITACG produces. It might be, as my staff has 
pointed out, that there are just too many ways to distribute 
information and people don't know what the best way is. Once it 
overcomes the struggle just to push intelligence reports out 
the door, ITACG staff and the advisory council can improve 
communication and feedback with our partners on the front 
lines. Part of the problem, too, is that the classification 
process is incredibly difficult to navigate. As the ITACG 
evolves, State and local input will improve. Virtual networks 
show promise for uniting State and local intelligence 
communities and law enforcement.
    Attracting the next group of police and sheriffs' officers 
to the ITACG detail has also proven extremely difficult. It is 
true that it is a hardship for many to move to Washington. I 
would observe as a Member of Congress that sometimes it is a 
hardship to serve in Washington. But nonetheless, I think that 
if awareness is raised, there will be a number of hardy souls 
out there who think that it will be an important experience and 
who can accommodate moving here for a year or 2 with their own 
families.
    Next week, I will be speaking, and maybe some of you will 
be too, at the National Fusion Center Conference in San 
Francisco. NCTC is evolving into its own sort of national 
fusion center of which the ITACG is becoming a crucial 
function. I just want to salute Mike Leiter for the work that 
he has done to move that agency forward.
    I look forward to the testimony this morning, and now yield 
to the Ranking Member for opening comments.
    Mr. Reichert. Thank you, Madam Chair. Good morning.
    Thank you, distinguished panel, for being here this morning 
and giving us some of your time.
    Director Leiter, welcome.
    Ambassador McNamara, Under Secretary Allen and Assistant 
Director Murphy, welcome back. We appreciate your taking the 
time to be here this morning.
    We meet today to look at the stand-up of the Interagency 
Threat Assessment Coordination Group, or ITACG for short. The 
ITACG was created by the president in 2006 and codified by 
Congress in order to improve the sharing of information with 
State, local, tribal and private sector officials. Most 
importantly, it was created to help satisfy the needs of State, 
local, tribal and private sector entities.
    I believe all of us want to hear how ITACG is satisfying 
these needs and how all of you are working to improve the 
products being sent to State and local officials. As you all 
know, I served in law enforcement for 33 years prior to coming 
here. I am not sure I would consider joining your team, though, 
and spending my entire life here in Washington, DC after this 
job. But I strongly believe that there are people out there 
willing to serve, qualified people that we should be reaching 
out to join your team to help bring State and local officials 
together in your efforts.
    We really need the cop's perspective on terrorism. It is 
essential to our State and our local and tribal police 
department to prevent terrorist attacks. It is essential for 
them to feel like they are part of the effort. They sometimes 
don't feel a part of the effort. We must incorporate cops in 
the production of terrorism products. The ITACG work is to be 
commended for helping to move this effort forward, but we also 
like to note that there is a lot that we can do to make this 
work better.
    Additionally, the highly classified nature of terrorism 
information can cause problems with sharing with uncleared 
State and local personnel so that ITACG also helps rapidly 
declassify and release information to the State, local, tribal 
and private sector officials. This is an essential role that 
will help speed information to the front lines and the hands of 
our first-preventers.
    We have all heard concerns about how long it took to get 
the ITACG up and running. But what I am really interested in is 
how we move forward to make sure that we have a robust ITACG 
that fully incorporates the perspectives and expertise of our 
local cops and other counterterrorism officials.
    You have two members here this morning with differing 
experiences that I think really provide a great marriage of 
experience in the Chair's experience here in Congress and her 
experience in the intel world, and then mine coming from the 
local perspective. I just have to say, again from a cop's 
perspective, and I have felt, and I know they still do feel, 
outside. There is a great deal of work to do for all of you to 
reach out.
    The Federal system seems so overwhelming and cumbersome and 
overly bureaucratic and very secretive to the local sheriff, 
the local police chief and the local cop or deputy on the beat. 
It is going to take a lot of hard work, dedication and really 
being sincere about what your mission is in order to overcome 
that, and finally and eventually and hopefully create a system 
that really is designed to keep our country safe.
    I yield back. Thank you, Madam Chair.
    Ms. Harman. I thank you, Dave, for those comments. I do 
think our experience meshes well and everyone should know that 
this subcommittee proceeds on a bipartisan basis. Our 
legislation is bipartisan. Our view of these issues is 
bipartisan, and we are trying to take a bottom-up view of this 
issue of information-sharing. Your perspective is invaluable as 
we discuss these issues.
    Other members of the subcommittee will be arriving later. 
If they have opening statements, they will be inserted in the 
record, and they will be recognized for questions in the order 
that they arrive.
    I welcome our witnesses this morning. Our first witness, 
Ambassador Ted McNamara, is the program manager of the 
information-sharing environment called ISE, a position 
established by the Intelligence Reform and Intelligence 
Prevention Act of 2004. Ambassador McNamara is a career 
diplomat who originally retired--originally retired--from 
government service in 1998, after which he spent 3 years as 
president and CEO of the America Society and the Council of the 
Americas in New York. Following the September 11 attacks, he 
was asked to return to government service as senior advisor for 
counterterrorism and homeland security at the Department of 
State.
    Our second witness, Mike Leiter, is the acting director of 
the National Counterterrorism Center, NCTC. Prior to joining 
the NCTC, Mr. Leiter served as the deputy chief of staff for 
the Office of the Director of National Intelligence. In this 
role, he assisted in the establishment of the ODNI and 
coordinated all internal and external operations for the ODNI.
    Mr. Leiter was also involved in the development of national 
intelligence centers, including the NCTC and the National 
Counterproliferation Center, and their integration into the 
larger intelligence community. Again, I commend you for that. I 
think these are crucial organizations, as we try to make 
certain that we connect the dots next time. Mr. Leiter served 
as the deputy general counsel and assistant director of the 
president's Commission on the Intelligence Capabilities of the 
United States Regarding Weapons of Mass Destruction.
    Our third witness, who seems to be living at that witness 
table, is Under Secretary Charlie Allen. He is the Department 
of Homeland Security's chief intelligence officer. Under 
Secretary Allen leads the Department's intelligence work 
through the Office of Intelligence and Analysis, I&A, and 
focuses on improving the analysis and sharing of terrorist 
threat information.
    He is responsible for ensuring that information is gathered 
from Department component intelligence units, as well as 
Federal, State, local, tribal and private sector partners. It 
is also his job to ensure that this information is fused with 
intelligence from other parts of the intelligence community to 
produce analytic products and services for the Department's 
customers.
    Our fourth witness, Wayne Murphy, is an assistant director 
at the FBI. He joined the bureau with more than 22 years of 
service at the NSA, the National Security Agency, in a variety 
of analytic, staff and leadership positions. The bulk of his 
career assignments have involved direct responsibility for 
SIGINT analysis, signals intelligence analysis and reporting, 
encompassing a broad range of targets.
    I am done with all of my acronyms for the morning, and from 
now on I will speak in some other language.
    Without objection, the witnesses' full statements will be 
inserted in the record. We will now begin 5 minutes each of 
summarizing your statements.
    Ambassador McNamara, you are first.

   STATEMENT OF THOMAS E. ``TED'' MCNAMARA, PROGRAM MANAGER, 
    INFORMATION SHARING ENVIRONMENT (PM-ISE), OFFICE OF THE 
               DIRECTOR OF NATIONAL INTELLIGENCE

    Mr. McNamara. Thank you, Madam Chairwoman and Ranking 
Member Reichert. I am pleased to be here today, and I welcome 
the opportunity to provide the subcommittee with the 
information that it needs with respect to the Interagency 
Threat Assessment and Coordination Group, the ITACG--a rather 
clumsy name, but nonetheless we work with it.
    I am pleased to be here with Misters Allen, Leiter and 
Murphy, who are charged, as you know, with the overall 
responsibility for managing this new organization. As required 
by law, I recently submitted to the Congress a report regarding 
the efforts to establish the ITACG and I would like to request 
that that report be included as part of the record.
    Ms. Harman. Without objection.* By the way, thank you for 
briefing us just a few days ago on the contents of that report.
---------------------------------------------------------------------------
    * The information is included in the witness statement which 
follows.
---------------------------------------------------------------------------
    Mr. McNamara. You are very welcome.
    Each of my colleagues will be providing you with the 
details of the progress we have made as they are charged with 
managing this effort. What I would like to do, accordingly, is 
to look at it from the perspective that I have as the program 
manager, whose job it is to coordinate and oversee the creation 
of the ITACG and to monitor and assess and report to you 
annually on the progress of that group.
    What I would like to do is first talk about where we are 
now. What began 2 years ago as a concept sketched on a piece of 
graph paper is now institutionalized by statute and 
presidential directive. For the past year, the four of us 
seated at this table have worked even more intensively, 
particularly since the August passage of the 9/11 Act, to make 
the ITACG a reality. It is a reality today.
    I think all of us agree that it hasn't been easy, but it is 
never easy, as you mentioned, Madam Chairwoman, to bring about 
major change. The ITACG, though modest in size, represents a 
major change in how we share information with State, local and 
tribal authorities. The information-sharing environment 
requires Federal officials to become knowledgeable about the 
intelligence and information needs of State and local and 
tribal officials, and in establishing the ITACG, I think we 
have accelerated the process that makes us smart about the 
needs of those officials.
    I think it also requires that we have a greater 
understanding of how State and local and tribal governments 
operate, because in protecting our communities from terrorism, 
the responsibilities of these authorities differ from those of 
the Federal Government, and therefore their information needs 
are different.
    The current ITACG is another step forward in realizing the 
goal of full information partnership at all levels of 
government. For the first time, State and local representatives 
with direct access to national intelligence will help shape the 
intelligence products that go out to protect our Nation's 
communities large and small.
    I am pleased, but not yet satisfied, with the progress we 
have achieved. We have more to do and the four of us are 
committed to doing what is necessary to achieve the goal of a 
full partnership as laid out in the 9/11 Act and in the 
president's national security strategy for information sharing. 
What needs to be completed is to integrate the ITACG detail. 
You will be hearing more about that from my colleagues.
    Let me make three points in closing. There has been some 
confusion about the activities of the ITACG. The first point I 
would make is the ITACG is an integral part of the Federal 
Government's effort to develop, draft and package terrorism-
related intelligence products intended for State and local 
authorities.
    The second point is that the ITACG detail is an active 
participant in the production process and the ITACG advisory 
council exists to advise with respect to that production 
process and other aspects that are a responsibility of the 
ITACG.
    Third, I want to note here the importance of the Congress 
in getting the ITACG up and running, and in particular we can 
see that in the structure of the ITACG, which reflects quite 
accurately, I think, the intent of the 9/11 Act of last August.
    In conclusion, I have a couple of other points, but I am 
running out of time. Well, I do have 30 seconds, so I will put 
the third point in, and that is that we have had problems----
    Ms. Harman. You can keep complimenting the role of the 
subcommittee if you would like. We will give you extra time for 
that.
    [Laughter.]
    Mr. McNamara. Okay.
    The next point I would make is that there are problems in 
recruiting, as you mentioned, Madam Chair. The challenge is to 
overcome that, and I think with the help of the local officials 
themselves, particularly those on the advisory council, we are 
going to overcome that problem.
    In conclusion, let me note that I have spent half of my 
career devoted to our Nation's efforts to fight terrorism. 
Including State and local partners in those efforts has 
dramatically enhanced the safety of Americans. As we move 
forward in this area, as we include them more, make them true 
full partners in this, I expect that our security will be 
enhanced even more.
    We have accomplished much, and much, much more needs to be 
done. I thank you for the time.
    [The statement of Mr. McNamara follows:]
            Prepared Statement of Thomas E. ``Ted'' McNamara
    Chairwomen Harman, Ranking Member Reichert, and Members of the 
subcommittee, let me begin by taking this opportunity to thank you for 
your continued support of our efforts to build an information-sharing 
environment, and more specifically for your commitment to making the 
Interagency Threat Assessment and Coordination Group (ITACG) a reality. 
The President has issued Guidelines and his National Strategy for 
Information Sharing, Congress has provided both oversight and statutory 
authority, and our State and Local partners are committed. The Federal 
partners in this effort, the Department of Homeland Security, the 
Federal Bureau of Investigation, the National Counterterrorism Center, 
and the PM-ISE, must meet the President's and Congress's intent. Much 
progress has been made to this end, but more can be done.
    In Section 521 of the Implementing Recommendations of the 9/11 
Commission Act of 2007, Congress directed me to provide an update on 
the progress made in implementing the ITACG. The attached report 
contains our current assessment of the ITACG function and its 
contribution to the terrorism-related products being disseminated, as 
well as the challenges that we must address in the near term to make it 
fully functional and relevant to the way we share information with our 
State, local and tribal partners. Our key findings can be summarized as 
follows:
    1. The ITACG Detail has achieved an Initial Operating Capability.
    2. Efforts are ongoing to incorporate ITACG Detail participation 
        into the product coordination processes of NCTC, DHS, FBI and 
        other Federal producers of terrorism-related information 
        intended for dissemination to State, local, tribal governments 
        and the private sector.
    3. Recruitment and selection of State, local and tribal (SLT) 
        personnel for the ITACG detail continues.
    4. The ITACG Advisory Council has been established and has held two 
        meetings as of the date of this report.
    5. Measuring the impact and effectiveness of the ITACG Detail and 
        Advisory Council at this early stage of development is not an 
        easy task.
    Attachment.--Establishing the Interagency Threat Assessment and 
                           Coordination Group
 report for the congress of the united states, march 2008, prepared by 
          the program manager, information sharing environment

                            TABLE OF CONTENTS
------------------------------------------------------------------------
                                                                  Page
------------------------------------------------------------------------
1. INTRODUCTION..............................................          2
    1.1. 9/11 ACT REQUIREMENTS...............................          2
    1.2. KEY FINDINGS........................................          2
    1.3. BACKGROUND..........................................          3
        1.3.1. Components of the ITACG.......................          5
        1.3.2. Operational Framework of the ITACG............          5
2. CURRENT STATUS OF THE ITACG...............................          7
    2.1. THE ITACG DETAIL....................................          7
        2.1.1. Staffing......................................          7
        2.1.2. Facilities & Logistics........................          8
        2.1.3. Information Technology Support................          8
        2.1.4. Activities to Date............................          8
    2.2. ADVISORY COUNCIL....................................         11
        2.2.1. Membership....................................         11
        2.2.2. Funding.......................................         12
3. NEXT STEPS................................................         13
    3.1. RECRUITMENT AND SELECTION CHALLENGES................         13
    3.2. APPROPRIATE NUMBER OF ASSIGNEES TO THE DETAIL.......         14
    3.3. ESTABLISHING FORMAL FEEDBACK MECHANISMS.............         14
    3.4. BROADEN THE DETAIL'S PARTICIPATION IN THE PRODUCT            15
     COORDINATION PROCESS....................................
    3.5. HOW PROGRESS WILL BE MEASURED.......................         15
APPENDIX ONE: ITACG ADVISORY COUNCIL MEMBERS.................         16
APPENDIX TWO: STATE AND LOCAL ASSIGNEES TO THE ITACG DETAIL..         17
APPENDIX THREE: ITACG INPUT ON SPECIFIC INTELLIGENCE PRODUCTS         18
------------------------------------------------------------------------

                            1. introduction
1.1. 9/11 Act Requirements
    Pursuant to Section 521 of the Implementing Recommendations of the 
9/11 Commission Act of 2007 (the act), the Program Manager for the 
Information Sharing Environment (PM-ISE), in consultation with the 
Information Sharing Council (ISC), is responsible for monitoring and 
assessing the efficacy of the Interagency Threat Assessment and 
Coordination Group (ITACG). Specifically, the Act requires the PM-ISE 
to issue an annual report on the progress of the ITACG to the Secretary 
of Homeland Security, the Attorney General, the Director of National 
Intelligence, the Committee on Homeland Security and Governmental 
Affairs of the U.S. Senate, and the Committee on Homeland Security of 
the U.S. House of Representatives.
1.2. Key Findings
    1. The ITACG Detail has achieved an Initial Operating Capability.
    Federal, State, and local personnel, along with contractor support, 
are working in dedicated workspace with full connectivity to systems 
available within National Counterterrorism Center (NCTC) workspaces. 
ITACG personnel regularly attend all relevant meetings at the NCTC and 
are becoming engaged in its daily activities and production processes.
    2. Efforts are ongoing to incorporate ITACG Detail participation 
        into the product coordination processes of NCTC, the Department 
        of Homeland Security (DHS), the Federal Bureau of Investigation 
        (FBI), and other Federal producers of terrorism-related 
        information intended for dissemination to State, local, and 
        tribal governments and the private sector.
    a. DHS, FBI, and NCTC are working to develop a process to ensure 
            that the Federal Intelligence Community speaks with ``one-
            voice'' when communicating with State, local, and tribal 
            (SLT) governments and the private sector regarding 
            terrorism-related threats. In developing this process, all 
            parties involved recognize there are circumstances in which 
            the rapid issuance of time-sensitive threat advisories is 
            necessary. While extensive interagency coordination in the 
            drafting and production of such advisories is preferred, it 
            is not always possible.
    b. There are already several examples of the ITACG Detail providing 
            valuable input to products intended for State, local, 
            tribal, and private sector (SLTP) entities. In addition to 
            the ITACG working primarily to assist NCTC production as 
            required by the act, the ITACG Detail is becoming more 
            involved in the product coordination processes of 
            individual agencies, in particular the DHS and FBI. The 
            ITACG Detail is actively working with the DHS and FBI 
            production teams to determine the appropriate level of 
            coordination required.
    3. Recruitment and Selection of State, Local, and Tribal Personnel 
        for the ITACG Detail Continues.
    a. SLT representation on the ITACG Detail currently consists of 
            four State and local law enforcement officers. The Advisory 
            Council has identified the need for broader State, local, 
            and tribal representation. This includes a representative 
            from a tribal government; the fire service; and individuals 
            with background and experience in homeland security 
            planning and operations at the State and local level.
    b. Lessons learned during initial efforts to recruit SLT assignees 
            for the ITACG Detail have informed the methods and 
            administrative processes used to raise SLT awareness of the 
            ITACG, and to identify SLT personnel for future assignment 
            to the ITACG Detail.
    c. Recruiting efforts continue to address the need for broader SLT 
            representation and to ensure adequate overlap when there is 
            turnover of SLT assignees within the ITACG Detail.
    4. The ITACG Advisory Council has been established and has held two 
        meetings as of the date of this report.
    The Advisory Council has determined that for this first year, there 
is a need to meet every 60 days. In addition, the Council will meet in 
``special session'' via teleconference as required to address selected 
topics that require immediate attention.
    5. Measuring the impact and effectiveness of the ITACG Detail and 
        Advisory Council at this early stage of development is not an 
        easy task.
    a. The ITACG Detail has developed an outreach plan to broaden 
            awareness of the Detail's mission. The outreach plan is 
            intended to expand awareness within the Federal Government 
            and among SLT governments of the mission and capabilities 
            of the ITACG Detail.
    b. Appropriate performance measurements for the ITACG Detail 
            regarding impact and effectiveness are currently under 
            discussion by the Advisory Council. We expect such measures 
            to be approved by 3rd quarter fiscal year 2008.
1.3. Background
    The President and Congress directed establishment of the ITACG to 
improve the sharing of information with SLTP officials within the scope 
of the Information Sharing Environment (ISE).\1\ As stated in the 
administration's National Strategy for Information Sharing: Successes 
and Challenges In Improving Terrorism-Related Information Sharing, the 
``ITACG supports the efforts of the National Counterterrorism Center to 
produce `federally coordinated' terrorism-related information products 
intended for dissemination to SLTP partners through existing channels 
established by Federal departments and agencies by:
---------------------------------------------------------------------------
    \1\ The ISE was established under section 1016 of the Intelligence 
Reform and Terrorism Prevention Act of 2004 (6 U.S.C. 485).
---------------------------------------------------------------------------
    1. Enabling the development of intelligence reports on terrorist 
        threats and related issues that represent a `federally 
        coordinated' perspective regarding those threats and issues and 
        that satisfy the needs of State, local, tribal, and private 
        sector entities until such time as the ISE matures 
        organizationally and culturally to satisfy those needs as a 
        normal part of doing business;
    2. Providing advice, counsel, and subject matter expertise to the 
        Intelligence Community regarding the operations of State, 
        local, and tribal officials, including how such entities use 
        terrorism-related information to fulfill their counterterrorism 
        responsibilities as part of the core mission of protecting 
        their communities;
    3. Enabling the production of clear, relevant, official, `federally 
        coordinated' threat information in a timely and consistent 
        manner;
    4. Facilitating the production of `federally-coordinated' situation 
        awareness reporting for State, local, tribal, and private 
        sector entities on significant domestic and international 
        terrorism or terrorism-related events that have the potential 
        to have an impact on local or regional security conditions in 
        the United States;
    5. Ensuring that terrorism-related information intended for State, 
        local, tribal, and private sector entities is rendered in a 
        usable format that is, to the extent possible, unclassified, to 
        facilitate further dissemination;
    6. Informing and helping to shape Intelligence Community products 
        for State, local, tribal, and private sector entities by 
        providing advice, counsel, and subject matter expertise; and
    7. Facilitating the production and posting by NCTC of `federally 
        coordinated' terrorism-related information intended for 
        augmentation, as appropriate, and subsequent dissemination to 
        State, local, tribal, and private sector entities by other 
        Federal departments and agencies. Accordingly, the ITACG will 
        advise the Intelligence Community on how to tailor its products 
        to satisfy the needs of DHS, FBI, and other Federal entities so 
        that they in turn can better serve their consumers.''
            1.3.1. Components of the ITACG
    The Act requires the ITACG be comprised of a Detail and an Advisory 
Council, both of which are in place.
    A. ITACG Detail.--The Act established ``an ITACG Detail comprised 
        of State, local, and tribal homeland security and law 
        enforcement officers and intelligence analysts detailed to work 
        in the NCTC with Federal intelligence analysts for the purpose 
        of integrating, analyzing, and assisting in the dissemination 
        of federally-coordinated information within the scope of the 
        information sharing environment, including homeland security 
        information, terrorism information, and weapons of mass 
        destruction information.''
    The ITACG Detail (Detail) provides advice, counsel, and subject 
        matter expertise to the Intelligence Community regarding the 
        operations of SLT government entities, including how such 
        entities use terrorism-related information to fulfill their 
        counterterrorism responsibilities as part of their core mission 
        of protecting their communities. The efforts of the Detail 
        complement and supplement Federal analytic, production, and 
        dissemination efforts. The desired goal of the Detail is to 
        further enable the production of clear, tailored, relevant, 
        official federally-coordinated threat information in a timely, 
        consistent, and usable manner.
    B. ITACG Advisory Council.--The ITACG Advisory Council (Council) 
        sets policies and develops processes for the Detail to 
        facilitate the integration, analysis, and dissemination of 
        federally coordinated information within the scope of the ISE, 
        including homeland security information, terrorism information, 
        and weapons of mass destruction information. The act requires 
        at least 50 percent of the Council's membership be executive 
        level law enforcement and intelligence officials from SLT 
        governments. The Council membership shall also include 
        representatives from DHS, FBI, NCTC, Department of Defense, 
        Department of Energy, Department of State, and the PM-ISE; and 
        meet not less than quarterly at the NCTC.
            1.3.2. Operational Framework of the ITACG
    A. ITACG Detail.--The daily operations of the Detail include 
        identifying, reviewing, and assessing relevant material of 
        interest to SLTP entities, and supporting the appropriate 
        dissemination of such material through existing channels of the 
        Departments of Justice and Homeland Security and other 
        agencies, as appropriate. Additionally, the Detail recommends 
        which products should be posted concurrently on appropriate 
        NCTC websites to establish common situational awareness and 
        enhance coordination across all elements of the Federal 
        Government. Specifically, the Detail focuses on three types of 
        reporting:
    1. Alerts, Warnings, and Notifications.--ITACG identifies time-
            sensitive terrorism threats to locations within the United 
            States.
    2. Situational Awareness Reporting.--ITACG reviews significant 
            events and activities occurring at the international, 
            national, State, and local levels to determine if these 
            events and activities have the potential to raise concern 
            among SLTP partners regarding a possible domestic terrorist 
            attack.
    3. Terrorism-Related Strategic and Foundational Assessments.--ITACG 
            reviews analytical intelligence products to identify 
            suitable strategic and foundational assessments as 
            candidates for downgrading or tailoring for dissemination 
            to SLTP consumers.
    B. ITACG Advisory Council.--The Council develops policies, 
        processes, procedures, standards, and guidelines for the 
        Detail. The Council supports efforts of the Secretary of 
        Homeland Security to carry out his responsibilities as defined 
        in the Act by supporting the development of policies and 
        processes pertaining to the operation of the Detail. Section 
        521 of the Act (6 USC 121) requires the Secretary, in 
        coordination with the Council and NCTC to: (1) create policies 
        and standards for the creation of products; (2) evaluate and 
        develop processes for timely dissemination of these products to 
        SLTP; (3) establish criteria and methodology for indicating 
        reliability of information being disseminated to SLTP; (4) 
        educate the intelligence community about the requirements of 
        SLTP homeland security, law enforcement, and other emergency 
        response providers; (5) establish and maintain the ITACG 
        Detail; (6) detail a senior intelligence official from DHS to 
        NCTC to manage the daily operations of the Detail; and (7) 
        develop a mechanism to select SLT officials for the Detail. As 
        part of this final responsibility, the Secretary shall use 
        criteria developed by the Council for the selection of a 
        broadly representative group of homeland security and law 
        enforcement officers and intelligence analysts for placement in 
        the ITACG Detail.
                     2. current status of the itacg
2.1. The ITACG Detail
    The ITACG Detail has achieved an initial operating capability. 
Federal, State, and local personnel, along with contractor support, are 
working in dedicated workspace with full system connectivity onsite at 
the NCTC. Members of the Detail regularly attend key meetings at the 
NCTC and are becoming engaged in NCTC's daily activities and production 
processes.
            2.1.1. Staffing
    A. Federal Staff.--As of 29 October 2007, all Federal 
        representatives had reported for duty. This includes two DHS 
        representatives (Detail Director and a senior intelligence 
        analyst) and two FBI representatives (Deputy Director and a 
        senior intelligence analyst).
    B. State, Local and Tribal Staff.--As of 4 February 2008 four State 
        and local law enforcement officials have reported for duty on 
        the ITACG Detail. The number of State and local assignees is 
        not limited to four individuals, nor is participation limited 
        to only law enforcement personnel. The State and local 
        assignees currently working on the Detail represent the 
        totality of individuals who applied for assignment to the 
        Detail. All four applicants were vetted, nominated, and 
        forwarded to DHS and FBI. DHS and FBI approved all four after 
        certifying their security clearances. The number of applicants 
        and State and local assignees reflects the difficulty of 
        finding individuals who possess the requisite experience, have 
        an active TS/SCI clearance, and who would be willing and able 
        to relocate to Washington, DC for a 12-month tour.\2\ Names and 
        report dates of the current State and local assignees can be 
        found in Appendix Two to this report. While the ITACG supports 
        efforts to produce ``federally coordinated'' terrorism-related 
        information products intended for dissemination to SLTP 
        partners, private sector participation on the Detail is not 
        considered at this time.
---------------------------------------------------------------------------
    \2\ The ITACG Detail Implementation Team determined staffing 
requirements for the ITACG Detail. The implementation team was 
comprised of Federal representatives from DHS, FBI, NCTC, DoD, and PM-
ISE, and State, local and tribal representatives from Major Cities 
Police Chiefs Association, the International Association of Chiefs of 
Police, National Sheriffs Association, Homeland Security Advisors 
Council of the National Governors Association, National Native American 
Law Enforcement Association, and the Criminal Intelligence Coordinating 
Council of the Global Justice Information Sharing Initiative.
---------------------------------------------------------------------------
    C. Contract Support.--Two NCTC contractors with law enforcement and 
        intelligence community experience were assigned to the Detail 
        in advance of the arrival of the SLT assignees and continue to 
        provide support.
            2.1.2. Facilities & Logistics
    The Detail currently occupies ten work stations in a dedicated area 
at the NCTC.
            2.1.3. Information Technology Support
    All Detail members have access to NCTC UNCLASSIFIED, SECRET, and 
TOP SECRET/Special Compartmented Information (TS/SCI) systems, as well 
as relevant Law Enforcement databases and homeland security information 
systems. FBI networks and systems are fully available to the Detail, 
while work continues to provide full DHS connectivity.
    Prior to the establishment of the Detail, there was no existing 
connectivity to DHS information systems within NCTC workspaces. DHS and 
NCTC, in coordination with appropriate network security offices, are 
engineering and accrediting support solutions at the DHS UNCLASSIFIED 
and TS/SCI levels. As of the date of this report, UNCLASSIFIED services 
are in place, and work continues to establish access to the DHS TS/SCI 
system.
    FBI sponsored Detail members and personnel currently have access 
and print capability to FBI UNCLASSIFIED, SECRET, and TS/SCI systems.
    Access to IT systems follows standard procedure at the NCTC, where 
all employees have access to NCTC managed systems and individual 
employees additionally have specific access to their home or 
``sponsoring'' agency systems.
            2.1.4. Activities to Date
    A. Review of Current Intelligence and Threat Reporting.--The Detail 
        searches all available systems and databases daily for finished 
        intelligence of potential interest to SLTP. From 29 October 
        2007 through 6 February 2008, members of the Detail reviewed 
        over 34,000 published intelligence products at all levels of 
        security classification (many of these products were available 
        to State and local officials who have access to NCTC Online at 
        the SECRET classification level, NOL-S). From that review, the 
        Detail identified and posted directly to NOL-S for SLT 
        officials an additional 23 intelligence products at the SECRET 
        classification level, and requested that the security 
        classification be downgraded for 26 more Intelligence Community 
        products classified above the SECRET level. Currently, 16 of 
        those 26 have been disseminated to SLT authorities; nine are in 
        the process of being downgraded; and one product was determined 
        to not be appropriate for downgrading. In addition, NCTC has 
        put a process in place and is now routinely downgrading 
        classified products to the SECRET or unclassified level to ease 
        their dissemination to non-Federal entities. This includes not 
        only Situational Reports and Threat Matrix reports, but also a 
        new NCTC Directorate of Intelligence product, Terrorist 
        Intelligence Production Sharing (TIPS).
    B. Threat Reporting.--From 29 October 2007 through 6 February 2008, 
        the Detail reviewed 1,864 separate worldwide threat reports 
        concerning U.S. interests, identifying 77 of these as possible 
        threats to the Homeland. The Detail conducted further review of 
        these potential threats and identified five threat reports of 
        questionable credibility, two of which required better 
        characterization of the threat or the source. As a direct 
        impact of the Detail's involvement in those two cases, DHS and 
        FBI tailored the characterization of the threat and issued a 
        joint bulletin that addressed the needs of State and local 
        authorities.
    C. Dissemination of Products Influenced or Enabled by the Detail.--
        The Detail is becoming increasingly involved in the review and 
        editing of informational and intelligence products developed by 
        DHS, FBI, and NCTC.\3\ UNCLASSIFIED products are primarily 
        disseminated to SLT officials via email, the Homeland Security 
        Information Network (HSIN), and Law Enforcement Online (LEO). 
        All products up to the classification of SECRET that are 
        identified or influenced by the Detail are also posted on NOL-
        S. Currently, 35 State and major urban area fusion centers can 
        access NOL-S through the DHS Homeland Security Data Network 
        (HSDN) and FBI's FBINet, and therefore benefit from the ITACG's 
        ability to post products to NOL-S. Efforts are underway to 
        provide designated \4\ State and major urban area fusion 
        centers access to NOL-S. Accordingly, the NCTC, in coordination 
        with DHS and FBI, has begun providing instruction to SLT 
        officials regarding the use of NOL-S and the safeguarding of 
        information provided through access to it, including privacy 
        guidelines.
---------------------------------------------------------------------------
    \3\ An inventory of products influenced and/or developed through 
the efforts of the ITACG Detail is contained in Appendix Three to this 
report.
    \4\ In a letter dated Nov 28, 2007, the Attorney General and 
Secretary of Homeland Security requested that each Governor designate a 
primary fusion center ``to serve as the State-wide or regional hub to 
interface with the Federal Government to coordinate the gathering, 
processing, analysis, and dissemination of terrorism, law enforcement, 
and homeland security information in an all-crimes approach''.
---------------------------------------------------------------------------
    D. Additional Activities.--The Detail has been involved in several 
        administrative and collaborative efforts with SLTP and Federal 
        partners to further the establishment of the ITACG. Highlights 
        of these activities include:
    i. November 2007.--Participated in Congressional briefing regarding 
            ITACG status.
    ii. December 2007.--
                      1. Briefed the ITACG Advisory Council during its 
                inaugural meeting.
                      2. Provided an awareness briefing to the Chiefs 
                of Staff of all NCTC components;
                      3. Met with NCTC's Office of Strategic 
                Communications to discuss public relations associated 
                issues and to provide information for an article about 
                the ITACG, subsequently published in the ODNI 
                ``Spotlight'' newsletter for the IC;
                      4. Delivered a status report to the ODNI Civil 
                Liberties and Privacy Office;
                      5. Met with NCTC Chief of Budget and Plans to 
                develop a budget;
                      6. Met with NCTC Information Sharing and 
                Knowledge Development (ISKD) to improve the handling of 
                Virtual Threat Information and Virtual Walk-Ins.
    iii. January 2008.--
                      1. Met with DHS Office of Civil Rights and Civil 
                Liberties to assist with the ITACG Privacy Impact 
                Assessment;
                      2. Briefed ITACG's mission and function and how 
                it relates to SLTP information-sharing activities to 
                NCTC's Directorate of Intelligence and the DNI Analysis 
                101 course;
                      3. Met with NCTC Mission Systems to develop a 
                video which will provide SLT an overview of NOL-S and 
                its capabilities;
                      4. Met with FBI National Security Reports and 
                Requirements Section about source description used in 
                Intelligence Information Reports as well as the 
                priority of downgrading SECRET reporting to 
                UNCLASSIFIED//FOR OFFICIAL USE ONLY (U//FOUO) for SLT;
                      5. Met with DHS (Intelligence Watch and Warning) 
                and the FBI (Directorate of Intelligence) to streamline 
                the dissemination of DHS Chief Intelligence Notes (CINT 
                Note) and FBI Terrorist Alert and Advisory Messages via 
                the Strategic Information and Operations Center Law 
                Enforcement Alert Messaging System (SLAM).
    <bullet> iv. Ongoing.--
                      1. Finalizing the Detail's Operating Framework;
                      2. Developed an awareness brochure on the ITACG 
                that is currently being reviewed by the Advisory 
                Council and others prior to distribution to SLTP and 
                Federal partners;
                      3. Participating in the NCTC Outreach Advisory 
                Group, specifically ITACG's involvement in the calendar 
                year 2008 NCTC outreach plan. The Detail continues to 
                work with NCTC's National Partnership Branch, 
                Information Sharing Knowledge Development (ISKD), and 
                the PM-ISE regarding SLTP outreach and to develop a 
                coordinated communications plan for the ITACG;
                      4. Working with NCTC to enhance NOL-S Web portal 
                for SLT use, including content and cosmetic changes;
                      5. Reviewing and posting intelligence documents 
                directly to NOL-S, specifically for SLT use.
2.2. Advisory Council
            2.2.1. Membership
    The Secretary of Homeland Security has designated the Under 
Secretary of Homeland Security for Intelligence and Analysis as chair 
of the Advisory Council. In accordance with the Act, at least 50 
percent of the members of the Council are executive level SLT 
officials.
    Because the Council will set policies, develop processes, and 
review intelligence, members are required to have a SECRET clearance. 
SLT members of the Council are nominated by the Global Justice 
Information Sharing Initiative/Criminal Intelligence Coordinating 
Council (CICC) and the National Governors Association/Governors 
Homeland Security Advisors Council and hold a leadership position in a 
nationally-recognized professional association representing State, 
local, or tribal interests in homeland security, counterterrorism, or 
emergency response. As a member of the Council, these SLT 
representatives are expected to represent their peers from across the 
Nation.
    The Council has held two meetings. The inaugural meeting was held 
at NCTC on 6 December 2007. The second meeting of the Advisory Council 
was held on 15 February 2008, during which it reviewed current efforts 
of the Detail, the ITACG budget for fiscal year 2008 through fiscal 
year 2013, and recruiting and outreach efforts.
    The Council currently consists of representatives from the 
following organizations:
    A. State, Local and Tribal Members.--Includes one representative 
        from each of the following organizations:
    1. Global Justice Criminal Intelligence Coordinating Council 
            (CICC);
    2. International Association Chiefs of Police (IACP);
    3. International Association of Fire Chiefs (IAFC);
    4. International Association of Law Enforcement Intelligence 
            Analysts (IALEIA);
    5. Law Enforcement Intelligence Unit (LEIU);
    6. Major Cities Chiefs Association (MCC);
    7. Major County Sheriff's Association (MCSA);
    8. National Governors Association (NGA);
    9. National Native American Law Enforcement Association (NNALEA);
    10. National Sheriff's Association (NSA).
    B. Federal Members.--Includes one representative from each of the 
        following organizations:
    1. Department of Homeland Security--Chair;
    2. Department of Energy, Office of Intelligence;
    3. Department of Homeland Security, Office of Intelligence and 
            Analysis;
    4. Department of Defense, Joint Intelligence Task Force--Combating 
            Terrorism;
    5. Department of State, Bureau of Intelligence & Research;
    6. Federal Bureau of Investigation, National Security Branch;
    7. Program Manager for the Information Sharing Environment;
    8. National Counterterrorism Center;
    9. Office of the Director of National Intelligence, Office of 
            Homeland Security and Law Enforcement.
    The Council membership list is attached as Appendix One to this 
report.
            2.2.2. Funding
    A. ITACG Detail Start-up.--Approximately $1 million in startup 
        costs associated with facilities (renovations, rent, equipment, 
        etc.), information system connectivity and contract support 
        have been funded by the PM-ISE. Personnel costs (Federal, 
        State, and local), information system design, accreditation, 
        and deployments costs, and ITACG Detail travel expenses have 
        been funded by DHS and FBI.
    B. ITACG Advisory Council Start-up.--Travel costs to date for SLT 
        members of the Advisory Council have been funded by the PM-ISE. 
        DHS provides administrative support to the Council.
    Detailed budget-related information will be addressed under 
separate cover.
                             3. next steps
    Ensuring the effective operations of the ITACG Detail and Advisory 
Council remains a priority. DHS, FBI, NCTC, and the PM-ISE are mindful 
that continued joint effort is required to achieve full ITACG 
functionality and sustainment.
3.1. Recruitment and Selection Challenges: The recruitment and 
        selection of State, local and tribal personnel for the ITACG 
        Detail presents several challenges.
    The Act states that the ITACG Detail shall consist of SLT homeland 
security and law enforcement officers and intelligence analysts. The 
four current assignees were nominated either by the Criminal 
Intelligence Coordinating Council of the Global Justice Information 
Sharing Initiative or by the Homeland Security Advisors Council of the 
National Governors Association. Three of the four are law enforcement 
personnel from large city police departments and the fourth is from a 
State police agency. The Detail position announcements were advertised 
by both of these organizations through established channels and 
nominations were forwarded to either DHS or the FBI, who formally 
selected the Detail assignees. The administrative process currently 
used for those nominees selected by the FBI is to bring them into the 
Federal Government via the FBI's Law Enforcement Fellowship Program. 
Those nominees selected by DHS are given Federal status via the 
Interagency Personnel Agreement (IPA) process.
    Lessons learned during initial efforts to recruit and 
administratively process SLT assignees have led to a reevaluation of 
the methods and administrative processes used to both raise awareness 
about this opportunity, as well as to identify and nominate SLT 
personnel for the Detail. The entire process proved to be more complex 
and time-consuming than originally anticipated. For example, all 
parties to the effort initially agreed that SLT personnel assigned to 
the Detail should be of ``senior rank'' (lieutenant or above), serve a 
12-month tour of duty, and possess an active TS/SCI clearance. In 
addition, working at NCTC also requires that personnel successfully 
complete a Counter Intelligence Polygraph. For Detail personnel, that 
polygraph is administered subsequent to an individual being selected 
for the assignment and prior to reporting for duty.
    As the search process began, it became clear that there were a 
limited number of SLT officials of senior rank with the requisite 
experience and an active TS/SCI clearance who would be willing and able 
to relocate to Washington, DC for a 12-month tour. The criteria were 
broadened to ensure that eligible candidates with appropriate 
experience but less-senior rank could apply. The CICC and NGA Advisory 
Group then readvertised the position and four law enforcement personnel 
applied. Those four professionals were vetted, nominated, and forwarded 
to DHS and FBI, who approved all four after certifying their security 
clearances.
    The ITACG Advisory Council, working with the ITACG Detail, is 
actively evaluating the recruitment process in order to ensure greater 
diversification and representation among assignees from various 
geographic regions and disciplines (e.g., tribal, law enforcement, 
homeland security, fire service, public safety, emergency management, 
etc.). The Advisory Council has endorsed additional recruiting efforts 
to identify suitable candidates representing these areas. DHS, FBI, and 
NCTC are working with the ITACG Advisory Council to modify the 
recruitment process and identify incentives that would encourage a 
greater level of interest by SLT personnel. The Advisory Council is 
also reviewing how best to ensure adequate overlap during turnover 
between current Detail members and their successors.
3.2. Appropriate Number of Assignees to the Detail: How best to 
        determine the appropriate number of State, local, and tribal 
        assignees to the ITACG Detail.
    Four law enforcement professionals volunteered for the ITACG Detail 
and were accepted. The original plan was to have five (5) in the 
initial set of personnel and to reevaluate the number needed as the 
Detail developed. While finding qualified SLT participants will likely 
remain a challenge, efforts are underway to expand State and local 
participation to include a representative from a tribal government, a 
representative from the fire service and an individual with experience 
in State or local homeland security operations.
    The methods by which DHS and FBI sponsor the assignees differ and 
have presented some inequities in reimbursement for salary and travel. 
As a result, the Advisory Council and the Detail recognize the need to 
streamline and standardize the Fellowship Program(s) supporting State 
and local assignees. The Council, the Detail, DHS, FBI, and NCTC are 
working closely to ensure that the current set of State and local 
assignees are properly supported, and that future candidates will be 
encouraged and assured that a tour at the ITACG will not adversely 
affect them financially or professionally. It should be noted that 
expansion of the Detail from its current size of ten personnel will 
require additional facility space, computer support, and salary 
funding.
3.3. Establishing Formal Feedback Mechanisms: Existing feedback 
        mechanisms for SLTP officials to inform the ITACG Detail of 
        their information needs are ineffective and need improvement.
    While there are established feedback mechanisms supporting 
terrorism-related information products disseminated by the Federal 
Government to SLTP audiences, there is some question as to their 
current effectiveness. DHS, FBI, NCTC, and the Detail rely primarily 
upon informal feedback to determine customer satisfaction, including 
seeking Advisory Council guidance. The Council can also provide 
guidance regarding how best to establish a feedback mechanism. The 
Council endorsed the Detail's proposed Outreach Plan, designed to 
educate SLT organizations as to the functions of the Detail and solicit 
specific information requirements for which the ITACG should advocate 
within the Federal community. The DHS, FBI, and ITACG Detail are also 
developing a survey mechanism to identify SLT needs and desires for 
information.
3.4. Broaden the Detail's Participation in the Product Coordination 
        Process: There are already several examples of the ITACG Detail 
        providing valuable input to intelligence products, and efforts 
        to broaden the ITACG Detail's participation in NCTC, DHS and 
        FBI product coordination processes continue.
    DHS, FBI, and NCTC in consultation with the Council, continue 
efforts to define how the mission and role of the Detail will be 
carried out. Efforts to fully incorporate the Detail into the product 
coordination processes of DHS and FBI, particularly for time-sensitive 
issues, are ongoing; senior officials from DHS, FBI, and NCTC are 
working to develop processes for this. In addition, to ensure 
visibility of ITACG involvement in such processes, the ITACG Detail and 
Advisory Council are drafting appropriate language to reflect the 
Detail's involvement in the coordination of Federal homeland security, 
terrorism, and weapons of mass destruction information.
3.5. How Progress Will Be Measured
    At this early stage of development, measuring the impact of either 
the ITACG Detail or Advisory Council is not an easy task. As the Detail 
begins operations, the Council is actively assessing the Detail's 
performance to influence the Federal counterterrorism community's 
production of terrorism-related information intended for SLT customers. 
To date, progress has been measured based on the achievement of 
milestones related to staffing the Detail and ensuring that mission 
activity, facilities, and logistical requirements are met. As part of 
its mandate to ``monitor and assess the efficacy of the ITACG,'' the 
PM-ISE, in consultation with DHS, FBI, NCTC, and the Council, is 
working to define those performance measures that will best reflect the 
value-added provided by the Detail, i.e. both output and outcome 
measures that effectively allow for evaluation of its impact and any 
adjustments that need to be made.
              Appendix One: ITACG Advisory Council Members
                          member organizations
    Chair, Dept of Homeland Security; National Native American Law 
Enforcement Association (NNALEA); Major Cities Chiefs Association 
(MCC); GLOBAL Justice Information Sharing Initiative, Criminal 
Intelligence Coordinating Council (CICC); National Sheriffs' 
Association (NSA); International Association Chiefs of Police (IACP); 
International Association of Law Enforcement Intelligence Analysts 
(IALEIA); Law Enforcement Intelligence Unit (LEIU); International 
Association of Fire Chiefs (IAFC); National Governors Association 
(NGA); Major County Sheriffs' Association (MCSA); Department of 
Homeland Security; Federal Bureau of Investigation; Department of 
Defense; Department of Energy; National Counterterrorism Center (NCTC); 
Department of State; Program Manager for the Information Sharing 
Environment (PM-ISE); Office of the Director of National Intelligence.
      Appendix Two: State and Local Assignees to the ITACG Detail
1. Representative, Phoenix Police Department, reported to NCTC on 6 
November 2007.
2. Representative, Metropolitan Police Department of the District of 
Columbia reported to NCTC on 16 January 2008.
3. Representative, Boston Police Department, reported to NCTC on 4 
February 2008.
4. Representative, New Jersey State Police, reported to NCTC on 29 
January 2008.
    Note: All State and Local assignees are deputized as Federal 
employees and do not represent any single State or Local agency.
     Appendix Three: ITACG Input on Specific Intelligence Products
    I. Products Coordinated by ITACG Prior to Dissemination.--ITACG 
currently receives advance drafts of DHS and FBI homeland 
counterterrorism products (Bulletins, Intelligence Assessments, CINT 
Notes, SLAMs) for coordination.
    A. ITACG coordinated and provided substantive input on one 
        UNCLASSIFIED/FOR OFFICIAL USE ONLY (U//FOUO) FBI threat 
        assessment prior to dissemination.
    B. ITACG coordinated on seven U//FOUO joint DHS/FBI products prior 
        to dissemination, but provided no substantive input and 
        concurred with the products as written.
    II. Threat Reporting.--ITACG is reviewing all Intelligence 
Community threat reporting, to ensure those threats pertinent to the 
homeland have been properly characterized for S&L. From 23 October 2007 
to 6 February 2008, 1,864 threat reports were reviewed, of those 77 had 
homeland implications; however, in most cases no further action was 
required. ITACG coordinated and provided substantive input on one U//
FOUO joint DHS/FBI threat report prior to dissemination.
    III. Products Reviewed by ITACG Post Dissemination.--ITACG reviews 
already disseminated reporting to identify products suitable for S&L.
    A. Since 23 October 2007, reviewed over 34,000 intelligence 
        products. Many of those products were either: already 
        disseminated to S&L via established SECRET and U//FOUO systems, 
        not terrorism-related, had no homeland relevance, or were too 
        highly classified to downgrade. Twenty-five terrorism-related 
        products of potential benefit to S&L were identified, of those:
    1. Sixteen terrorism-related products have been downgraded with no 
            additional substantive input; and
    2. Nine are in the downgrade process.
    B. Since 31 January 2008, ITACG has posted 24 intelligence 
        community products directly into NOL-S.
    A complete list of product titles for all documents listed above is 
available through U//FOUO channels upon request.

    Ms. Harman. Thank you for coming back into government 
service.
    Mr. Leiter.

   STATEMENT OF MICHAEL E. LEITER, ACTING DIRECTOR, NATIONAL 
                 COUNTERTERRORISM CENTER (NCTC)

    Mr. Leiter. Thank you, Madam Chairwoman and Mr. Reichert. 
Thanks for having us here today.
    In your very kind introduction, you forgot what might be my 
most relevant experience, which is for 7 years I served in fire 
services and emergency medical services. So I think I do at 
least have some appreciation, certainly what you have, Mr. 
Reichert, of what first responders have to go through.
    I would like to cover two areas in my opening statement 
today, the first being how ITACG is actually operating, and the 
second, some of the challenges that I think we still see.
    The first component of the operations is making sure that 
the ITACG detail has full access to information. We have done 
that. Today, the ITACG detail, whether or not they are Federal 
or State and local representatives, has full access to all 
levels of classification for national intelligence, regardless 
of whether or not that information comes from the FBI, DHS, 
DOD, CIA or elsewhere. They have that access.
    In addition to the computer access that they have, they are 
fully integrated into the situational awareness procedures that 
we have for the entire Federal Government. So for example, the 
ITACG detail sits just a few feet from me every day as I chair 
a daily secure video teleconference which convenes all of the 
agencies involved in the counterterrorism efforts.
    They also participate in programs such as the National JTTF 
meetings, the turnover of the FBI Counterterrorism Division 
watches--all the things that the Federal Government does to 
maintain situational awareness, the ITACG is there.
    Now, the second part of the ITACG operations which I think 
are key is their participation in the production of situational 
awareness products. That is when something breaks, that they 
are there. In fact, they are. They participate very early in 
the collaboration process between FBI and DHS and NCTC to make 
sure that their perspective is included in these products.
    Now, finally, Madam Chair, you mentioned the foundational 
intelligence. This is a key piece because this isn't just about 
the immediate alert when something happens. It is about giving 
State and local officers an idea of what is going on in the 
world of counterterrorism from the Federal Government's 
perspective. ITACG already participates fully in the production 
of products at NCTC, advises NCTC analysts on which products 
should be downgraded first and how those products can be 
written for the State and local customers, and works with the 
FBI and DHS to do the same.
    Equally important, they are spearheading our efforts to 
streamline and improve our delivery of those products to the 
State and local governments through NCTC online.
    Now, that is a lot of theory. I want to give you a quick 
example of how this has already worked. I am sure you remember 
from a couple of weeks ago reports of a ricin incident in Las 
Vegas. DHS and FBI came up with an outstanding product very 
quickly to address what had happened in Las Vegas. The ITACG, 
though, brought a bit of expertise which I think improved that 
product.
    First, the initial product talked about 240 to 400 
micrograms of ricin, which to us people in the Federal 
Government might mean something, but to the sheriff in King 
County means very little. So the ITACG told them, well, let's 
tell them what 240 to 400 micrograms actually looks like, so an 
officer could visualize that. That was included in the report.
    Second, it talked about ricin in cake, powder and liquid 
forms, and the ITACG suggested they also say what it typically 
looks like and what it smells like, again for the State and 
local officers.
    Finally, the product talked about wearing personal 
protective equipment, and the ITACG suggested that they should 
provide slightly more detail on that, so a State and local 
officer would have a better sense of if they saw something, 
whether or not they could do it with gloves or whether or not 
they would have to call in a hazardous material group. From my 
perspective, this is exactly what the ITACG should be doing and 
it is what they are already doing.
    Now, I do want to note some areas which I think are 
challenges because it is important to remember that this is an 
early process and it should change because we are learning by 
doing. I want this to change. If we are static now where we 
are, we probably will not be addressing the needs in the 
future.
    So to begin, the question is, how stand-alone an entity 
should the ITACG be? From my perspective, it should be fully 
integrated into the NCTC and it should not write products 
itself. Rather, it should inform all the products that the 
Federal Government writes to support State and local officials.
    Second, the question is, what does it mean to have a fully 
coordinated product? This means a lot of things for a lot of 
people. My bottom line, though is, although we want to 
coordinate things, we don't want to delay them in a way that 
they are no longer useful. We have to coordinate, but we have 
to get things out quickly because otherwise the products won't 
meet the needs.
    Third, the size of the ITACG. It is modest now, with four 
State and local representatives and two contractors who also 
represent State and local interests. We already plan now on 
growing that by about five people to include fire, health and 
the like, as a recommendation from the advisory council. I 
think that that is probably a good start, and we will see where 
we go as the mission actually evolves.
    Finally, I want to note--and I am sorry I am over time, I 
will be just a moment--I want to note that this isn't just 
about the ITACG telling the Federal Government what to do. This 
is also about using the ITACG as a body of experts to help us 
understand what States and locals can do so we make sure the 
State and local information is getting up and being used 
effectively by the Federal Government.
    I think all of these are challenges, but certainly not 
insurmountable. They are simply challenges inherent to 
operationalizing a new entity, and I look forward to your 
counsel on how we can best to that.
    [The statement of Mr. Leiter follows:]
                Prepared Statement of Michael E. Leiter
                             March 13, 2008
    Chair Harman, Ranking Member Reichert, Members of the committee, 
thank you for the invitation to offer my assessment of the Interagency 
Threat Assessment Coordination Group (ITACG).
    I am pleased to be accompanied today by the Program Manager for 
Information Sharing Environment (PM-ISE), Ambassador Thomas E. 
McNamara, Mr. Wayne M. Murphy, Assistant Director of the FBI's 
Directorate of Intelligence, and Mr. Charlie Allen, DHS Under Secretary 
Office of Intelligence and Analysis.
    The Interagency Threat Assessment and Coordination Group (ITACG) 
brings Federal, State, local and tribal intelligence and law 
enforcement personnel together to enhance information sharing between 
the Intelligence Community, State, local, tribal, and private (SLTP) 
partners. NCTC is focused on meeting the ITACG statutory purpose of 
``integrating, analyzing, and assisting in the dissemination of 
federally-coordinated information within the scope of the information-
sharing environment, including homeland security information, terrorism 
information and weapons of mass destruction information, through 
appropriate channels identified by the ITACG Advisory Council.''\1\ The 
ultimate goal, of course, is to better protect the homeland against 
terrorism through increased information sharing. In our vision, the 
ITACG will complement, but not supplant, the intelligence production 
and information-sharing efforts of the Department of Homeland Security 
(DHS), the Federal Bureau of Investigation (FBI), and other executive 
departments and agencies. Today, I would like to address three 
principal areas: ITACG operations, improving information flow to SLTP 
partners, and some of the challenges we expect to face in this area in 
the coming months and years.
---------------------------------------------------------------------------
    \1\ Public Law 110-53--Aug. 3, 2007 Implementing Recommendations of 
the 9/11 Commission Act of 2007.
---------------------------------------------------------------------------
                            itacg operations
    The ITACG, established both by presidential order in December 2006 
and by statute in August 2007, reached initial operating capability at 
the National Counterterrorism Center (NCTC) in October 2007. ITACG 
advocates for Federal and non-Federal partners, without duplicating, 
impeding, or otherwise interfering with existing and established 
counterterrorism roles, and responsibilities.\2\ In its role of 
providing support to non-Federal partners, the group identifies 
reporting of potential interest to SLTP partners, ensures that the 
message is cast appropriately, and that the information is 
disseminated. In its role of providing support to Federal partners, the 
ITACG provides the State, local, and tribal perspectives to the 
Intelligence Community, and brings non-Federal information to Federal 
analysts. These actions are intended to increase the probability of 
appropriate responses to genuine terrorism threats, while diminishing 
the possibility of disproportionate reactions to terrorism incidents of 
low or questionable credibility.
---------------------------------------------------------------------------
    \2\ Guideline 2--Develop a Common Framework for the Sharing of 
Information Between and Among Executive Departments and Agencies and 
State, Local, and Tribal Governments, Law Enforcement Agencies, and the 
Private Sector.
---------------------------------------------------------------------------
    A ``learn by doing'' strategy has been implemented whereby ITACG 
members interact with elements throughout NCTC and across the community 
on behalf of non-Federal partners. And although we continue to learn, 
ITACG is already fully participating in appropriate interagency fora, 
reviewing analytical products, ensuring appropriate context, adding 
comment, facilitating dissemination and, in general, serving as the 
eyes and ears for State, local and tribal constituents. Our approach to 
ITACG operations has three core components: (1) ITACG access to a broad 
range of Federal counterterrorism information; (2) ITACG participation 
in production of alerts, warnings, and situational awareness reporting 
for SLTP partners; and (3) ITACG participation in production of 
finished, ``foundational'' intelligence for SLTP partners. I address 
each of these three areas in greater detail below.
1. ITACG Access to a Broad Range of Federal Counterterrorism 
        Information
    A key aspect of the ITACG role is to identify and promote effective 
dissemination of intelligence products at the lowest possible 
classification. A foundational aspect of this responsibility is that 
the ITACG representatives have access to a broad range of Federal 
counterterrorism information. This has been fully accomplished.
    The group--regardless of whether the individual is from a Federal, 
State, or local agency--has broad access to top secret, special 
compartmented, collateral, and unclassified Intelligence Community and 
Federal Law Enforcement systems, databases, reporting, and analysis. 
This includes access to native DHS, FBI, and NCTC systems. This 
inclusive access enables the ITACG to review terrorism information, and 
thereby facilitate its release to SLTP partners.
    This access to information systems and sensitive databases is 
further enhanced by the ITACG's attendance at daily Intelligence 
Community and Law Enforcement briefings. Of note, I would point out 
that an ITACG representative sits just a few feet from me as I chair 
the daily, 8 a.m. U.S. Government-wide secure video teleconference that 
includes 18 different offices--to include the FBI, DHS, CIA, Terrorist 
Screening Center, Department of Defense, National and Homeland Security 
Councils, and many others. In addition, the ITACG participates in the 
FBI Counterterrorism Watch shift change, the National Joint Terrorism 
Task Force brief, as well as other similar events.
    This high level of access permits ITACG to monitor the assessments 
made, and actions taken, by the National Intelligence Community and 
Federal Law Enforcement in response to terrorism-related activities. In 
addition, and perhaps more important, ITACG can subsequently--as in 
fact it already has--propose adjustments or additional actions on 
behalf of SLTP partners, understanding that those decisions regarding 
what DHS, FBI, or other Executive Departments and Agencies communicate 
and how to do so, remain exclusively with those organizations. Of note, 
ITACG recently identified a threat item which may have caused undue 
concern at the State and local level, given the source and content of 
the reporting. ITACG reached out to Federal partners and recommended 
further scrutiny of the threat and source. The product was redrafted, 
taking ITACG's recommendations into consideration, and delivered to 
State and local officials.
2. ITACG Participation in Production of Alert, Warning and Situational 
        Awareness Reporting for SLTP Partners
    The ITACG works with DHS, FBI, and NCTC during the drafting phase 
of counterterrorism ``alert, warning and situational awareness'' 
reporting. This early collaboration ensures that terrorism-related 
products are relevant to SLTP partners, account for the non-Federal 
perspective, provide suitably characterized source descriptions, and 
assess the reliability of the information. The intent is to properly 
qualify reporting which should assist our State, local, and tribal 
partners in taking the most informed course of action possible in 
response to threats to their jurisdictions.
    More specifically, a proposal is in front of the ITACG Advisory 
Council for ITACG to participate in the drafting of a ``just the 
facts'' timely product--wherein DHS, FBI, and NCTC alert our non-
Federal partners of a significant event, within hours of its 
occurrence. These ``just the facts'' reports are planned to be produced 
at the lowest possible level of classification--``UNCLASSIFIED and FOR 
OFFICIAL USE ONLY.'' If these events have an international terrorism 
nexus, then these products would be the first of many NCTC products 
being produced and provided to our non-Federal partners.
    Also I would like to note that the ITACG members will be co-
authoring NCTC's daily SECRET-level situational reports (NCTC Secret 
SITREPs) which will highlight, every 24 hours, significant terrorism-
related reporting for our State, local and tribal partners. In 
disseminating these products, SLTP partners will--albeit at a lower 
level of classification--be provided with the same situational 
awareness reporting that is currently relied upon by Federal officials.
3. ITACG Participation in Production of Finished, ``Foundational'' 
        Intelligence Reporting for SLTP Partners
    ITACG reviews counterterrorism, homeland security, and weapons of 
mass destruction finished intelligence--that which might be considered 
key ``foundational'' intelligence that is not related to a particular 
breaking event--to ensure that such intelligence speaks to, and can be 
accessed by, SLTP partners. More specifically, the ITACG helps to 
identify reporting of potential interest not already available to SLTP 
partners, proposes language for the benefit of SLTP consumers of 
intelligence, and facilitates the ``classification downgrade'' and 
broadest possible dissemination of such products. In many cases, this 
may include disseminating reports which have terrorist tactics, 
techniques, and procedures that are beneficial to law enforcement, 
infrastructure security, and first responders. Of note, ITACG serves 
this function for both NCTC-specific products, as well as products from 
other parts of the intelligence community.
    In addition to their involvement with disseminated intelligence 
products, the ITACG coordinates with intelligence directorates at DHS, 
FBI, and NCTC, during the initial production phase, enabling the ITACG 
to provide the State and local perspective to Federal intelligence 
products prior to dissemination.
    With respect to the broad range of finished intelligence produced 
by NCTC, ITACG reviews all NCTC products and identifies their 
suitability for broader dissemination. To assist ITACG, our analysts in 
the Directorate of Intelligence identify and downgrade highly 
classified assessments to a more manageable secret level via the NCTC 
Terrorism Information Product Sharing (TIPS) product line. These TIPS 
are subsequently disseminated at the SECRET, CONFIDENTIAL, and 
UNCLASSIFIED/FOR OFFICIAL USE ONLY levels, depending on the nature of 
the material and the utility of lesser classification.
    With respect to finished intelligence produced by intelligence 
community components other than NCTC, ITACG works on my behalf in my 
role as the DNI's Counterterrorism Mission Manager. In this regard, the 
ITACG reviews and comments on DHS and FBI terrorism and homeland 
security-related products to offer their perspective on how those 
products might best serve SLTP partners. In addition, and on a daily 
basis, ITACG reviews in excess of 400 intelligence reports from 
throughout the intelligence community--to include CIA, DOD, and others. 
Finally, the group also works with the intelligence community's primary 
analytic coordination team that NCTC manages, the Interagency 
Intelligence Committee on Terrorism (the IICT), to identify new topics 
of interest or re-visit previous topics of particular interest to 
State, local and tribal partners.
     improving sltp partner access to counterterrorism information
    Having information access and participating in the production of 
situational awareness reporting and finished intelligence is only a 
part of the ITACG's challenge. For regardless of how much intelligence 
is ``pushed'' by the ITACG and our interagency partners at FBI and DHS, 
it is only helpful if it can be accessed by SLTP partners. In this 
regard, UNCLASSIFIED/FOR OFFICIAL USE ONLY products are vital. But 
these products, by their very definition, cannot delve into sensitive 
information. And for these sensitive products--generally classified at 
the SECRET and CONFIDENTIAL levels--we must continue to improve 
delivery to SLTP partners.
    In this regard I cannot overstate the importance of NCTC Online 
Secret (NOL(S)). From my perspective, NOL(S)--a secure, classified Web 
site designed to mirror the Top Secret version that is used broadly by 
Federal officials--is a, if not the, key access point to 
counterterrorism information for SLT. I believe this because we have 
been told repeatedly by senior SLT officials that the information 
already contained on NOL(S) meets the vast majority of their 
counterterrorism needs. Thus, from my perspective, we must increase the 
utility of NOL(S) as well as increase SLT awareness of NOL(S). I 
believe that ITACG must play a key role in both endeavors.
    With respect to increasing the utility of NOL(S), ITACG is 
spearheading an effort to overhaul the look, feel and content of NOL(S) 
to be more directly relevant to non-Federal actors. Moreover, we are 
working with our Federal partners to post far more products to NOL(S) 
to ensure an even richer data set. This will include reporting related 
to breaking events, daily terrorism related situational reports, as 
well as an array of foundational reports produced by the Federal 
Community. The ITACG is working with the FBI to spread the word of 
NOL(S) to its field and headquarters personnel. As a result, FBI Field 
Office products can now be found on NOL(S), and the FBI Headquarters 
will shortly begin posting its own products to NOL(S).
    ITACG has also identified the need for posting NCTC TIPS and other 
``For Official Use Only'' reporting on systems with greater access by 
State, local, and tribal partners. ITACG has brokered an agreement 
between production managers at DHS, FBI, and NCTC to post these NCTC 
products to Law Enforcement Online (LEO) and the recently revamped 
Homeland Security Information Network (HSIN).
    To address the overall issue of ITACG awareness, the ITACG is 
preparing an outreach plan in conjunction with Federal partners, to 
alert Federal, State, local, tribal and private sector intelligence, 
law enforcement, and homeland security professionals of the importance 
of disseminating terrorism-related information as widely as possible. 
Part of this effort will be focused on demonstrating the value of 
NOL(S), as well as providing instructions on how to access the 
intelligence. As part of the outreach effort, ITACG representatives 
will deliver presentations, provide informational brochures, and 
solicit feedback on how ITACG can be of even greater value to our non-
Federal partners.
    Finally, I must note that like all Web sites, NOL(S) is only 
accessible if one has the right ``pipes''--in this case, DHS, DoD, or 
FBI SECRET-level networks that connect to our State, local and tribal 
partners. Although I cannot speak directly to such issues, it is my 
understanding that such systems are being rapidly deployed.
                      complexities and challenges
    As I hope is readily apparent, NCTC is taking the ITACG effort very 
seriously and I applaud the FBI and DHS on their collective efforts to 
support the ITACG. We continue to devote a tremendous amount of time, 
both that of my senior staff as well as my own, to getting this right. 
I am personally convinced that the ITACG will ``learn by doing.'' I'm 
also convinced that the entire Government agrees with the general 
proposition that the ITACG needs to address issues like consistency and 
clarity of message, as well as accurate content--and that it must do so 
while ensuring that reporting is provided to our non-Federal partners 
in a timely matter.
    On the good side, we already have concrete examples of ITACG 
facilitating the flow of information and enhancing information sharing 
between Federal and State, local and tribal entities. Much, however, 
remains to be done. As is the case with any standup effort, we are 
collectively working through the procedures to accomplish the goals set 
forth quite clearly in the relevant legislation. But we must recognize 
that we will continue to work through several challenges discussed more 
fully below.
    First, we continue to see that there are competing visions for the 
ITACG. We have been told by some that the ITACG needs to be much bigger 
and that it needs to serve as a stand-alone production and analysis 
shop. While I believe that the size of the element is about right for 
now, as it evolves so too may its size and therefore I reserve judgment 
as to the long-term size of the group. On the latter point, however, I 
am more adamant. ITACG should not--and in fact cannot--be a stand-alone 
production and analytic entity. Rather, the ITACG's strength flows from 
its access to information and its involvement in the production of 
intelligence by existing analytic entities within NCTC and elsewhere. 
Again, my view as noted above focuses on the need for the group to 
bring the State, local and tribal perspective to bear to build on the 
existing Federal talent and expertise and ensure that the Federal 
Government is leveraged to meet the needs of SLTP partners.
    Second, the ITACG must help clarify differing views of the phrase 
``Federally coordinated'' that finds the correct balance between 
multiple agency participation and timeliness of dissemination. The last 
thing we want would be ``National Intelligence Estimate, NIE-like'' 
timelines associated with pushing time-sensitive, situational awareness 
products.
    Third, although ITACG is relatively new, we are already looking at 
future staffing. As of early March, the ITACG is staffed with four 
State and local representatives, six Federal intelligence professionals 
and contractors, and a part-time tribal representative. As I have 
already noted, future growth will be dictated by mission needs. Beyond 
addressing current staffing, funding, space and IT issues, we have also 
begun planning the succession process for our State and local 
participants to ensure long-term continuity of ITACG operations. 
Working across Departmental and Agency boundaries, however, invariably 
brings to the surface a host of administrative issues. The selection 
process for getting people to NCTC, the differences in the FBI and DHS 
fellowship programs, and the adequate level of support external to NCTC 
are all issues that we are addressing in order to ensure the long-term 
viability of the program.
    Finally, I believe the ITACG should not only play an important role 
in providing advice and counsel to the Federal community as to what 
information flows to SLTP partners, but also advice and counsel on how 
information can best flow from SLTP partners. Currently, mechanisms to 
ensure that Suspicious Activity Reporting (SAR) or analytic products 
emanating from State Fusion Centers are made available to the Federal 
Intelligence Community are, in my view, less than systematic. 
Collectively we have a great deal of work to do in this regard and we 
should, in the future, use the ITACG's expertise as we seek to 
implement better approaches.
    None of these are insurmountable challenges, and some of them 
simply stem from a new program. They are, however, real issues with 
which we are addressing as we attempt to ``operationalize'' statutory 
language. I would caution against attempts to be excessively 
prescriptive about what the ITACG should do or how it will accomplish 
its mission. I cannot stress enough that we are in absolute agreement 
on the need to improve the quality of support to our non-Federal 
partners and we are working extremely hard to achieve this critical 
goal. And in that respect, I very much look forward to continuing to 
work closely with the committee as we move forward.
    Thank you and I look forward to your questions.

    Ms. Harman. Thank you very much, Mr. Leiter. I hope that 
your oral testimony will be reproduced here and sent on every 
network we can think of. I thought it was excellent, but it 
also will tell people how far we have come just in the last few 
months. Congratulations.
    Under Secretary Allen, you are recognized.

STATEMENT OF CHARLES E. ALLEN, UNDER SECRETARY FOR INTELLIGENCE 
         AND ANALYSIS, DEPARTMENT OF HOMELAND SECURITY

    Mr. Allen. Madam Chair Harman, Ranking Member Reichert, 
thank you for the opportunity to appear here with my 
colleagues, with Mr. Leiter, Mr. Murphy, as well as Ambassador 
McNamara, because we work each day to ensure actionable and 
intelligible terrorism-related information is provided to 
State, local and tribal authorities.
    The ITACG plays a vital role in this whole process. It 
helps shape products to make them more useful for State and 
local levels. The ITACG is truly, in my view, a value-added. 
When I came to the Department 2 years ago, the Department had 
little analytic capability and produced little for our domestic 
partners at the State and local levels. I think today it has 
changed.
    We have a whole line of products that we produce within the 
Department for our State and local partners. We have developed 
a close and productive relationship, as demonstrated here, with 
the National Counterterrorism Center, and with the FBI. Ted 
McNamara and his staff and my staff meet regularly to ensure 
that we are working concurrently to ensure fuller information 
sharing at State and local.
    As you know, I have embedded officers in 25 fusion centers 
across the country to facilitate the flow of information, as 
you indicated, down to State and local, and also to harvest 
information at that level and bring it back to the Federal 
Government that is vital. I will also, like some of my 
colleagues here, be at the National Fusion Conference in San 
Francisco next week, just to reinforce that.
    The ITACG's role, however, is at the apex of this 
information-sharing effort, whether it is we or whether it is 
our colleagues. Although it has only begun operations, and 
reached its initial operating capability in late January, I 
think it promises not only to improve the quality of our 
messaging to our domestic audiences, but to make the Federal 
contribution security posture more sustainable over time.
    The ITACG, as my written statement enumerates, is 
supporting many actions that we are pursuing. I would just like 
to talk about what we are pursuing with the ITACG, as well as 
with the advisory council. First, the ITACG advisory council is 
quickly becoming a major player as it should be. It is a key 
enabler to the success of the ITACG. We have a very ambitious 
agenda.
    We meet face-to-face either by telephone or in person every 
month. We are required under the legislation to meet quarterly, 
but we are meeting monthly, and we are putting a significant 
amount of the effort is going to be carried by the advisory 
council. They really do want to participate, and we can talk 
about that in the question-and-answer period.
    We are also continuing to engage, as I think Mr. Leiter 
said, with the advisory council until we have some additional 
officers there at the State and local who will represent not 
only the tribal, but who will also represent other areas and 
other disciplines such as homeland security management, fire 
and safety, public health service, law enforcement, 
intelligence analysis, and even others if appropriate. We see 
at least five additional individuals coming to work at the 
State and local.
    We are also working very hard to ensure that we develop 
standard operating procedures and policies to sustain the 
ITACG's contributions over time. We are rapidly unifying the 
way we disseminate information down to State and local at both 
the classified and unclassified levels. In this case, the work 
that we are doing with NCTC, with NCTC online, and of course 
working very jointly in joint advisories with the FBI I think 
is remarkable.
    In closing, I want to convey my personal sense of the 
importance of providing actionable intelligence to State, local 
and tribal officials to address threats to the homeland at the 
State and local level. I share your commitment to the ITACG's 
role in that process. We have made significant investments in 
the operations and success of both the ITACG and its advisory 
council.
    None of us, whether Federal, State or local, can 
unilaterally help in this process. We cannot do this alone on 
threat and threat assessment. We have to work in unison with 
our State and local partners to mitigate the risks to this 
country, which are very serious. We also, in my view, are 
working very hard to ensure that the privacy and civil rights 
of the public whom we are sworn to protect are still considered 
in all of our work.
    Thank you very much, and I look forward to your questions.
    [The statement of Mr. Allen follows:]
                 Prepared Statement of Charles E. Allen
                             March 13, 2008
                              introduction
    Chair Harman, Ranking Member Reichert, Members of the subcommittee, 
thank you for the opportunity to speak with you about the Interagency 
Threat Assessment and Coordination Group (ITACG), which was stood up in 
October 2007 and has been operational under the management of the 
National Counterterrorism Center (NCTC) since January 2008.
    I want to speak to you on the progress that we have made in 
implementing the vision set forth in the President's National Strategy 
for Information Sharing and the 9/11 Act of 2007. The information-
sharing framework described therein placed an advocate for State, 
local, and tribal interests at the hub of the counterterrorism 
community to ensure federally coordinated information and intelligence 
is robustly made available to our domestic law enforcement and homeland 
security partners.
    I am also pleased to appear alongside my partners here from NCTC, 
FBI, and the PMISE. I know they share my commitment to the ITACG's 
success. Every day we work together to ensure actionable and 
intelligible, terrorism-related information is provided to State, 
local, and tribal authorities. The ITACG, moreover, is playing an 
increasingly important role in shaping those products and making them 
more useful at the State, local, and tribal levels.
                      dhs' commitment to the itacg
    I know this subcommittee has concerns about the level of DHS 
support to building a robust presence of State, local, and tribal 
representatives in the group. As I have stated previously, I remain 
fully committed to making the ITACG a vital element in information 
sharing to our State, local, and tribal partners. Secretary Chertoff 
shares this commitment, and there are no barriers, stovepipes, or other 
impediments to hinder DHS efforts to ensure the ITACG's success. DHS 
sees the ITACG as a vital complement to our Department's protective 
mission and information sharing initiatives across a range of 
departmental efforts.
    Moreover, our actions demonstrate this commitment. We are working 
with our Federal partners to build an effective ITACG as rapidly and as 
broadly as possible. We have experienced bureaucratic delays along the 
way, but we moved swiftly to overcome these delays as they were 
identified. In one case, I personally intervened with the Acting Deputy 
Secretary to ensure that State and local officials could be fully 
funded by the Department while posted to the ITACG.
    Further, I am holding regular sessions with the ITACG Advisory 
Council--monthly for now rather than quarterly as required by its 
charter. The Advisory Council, half of whose membership is comprised of 
State, local, and tribal members and half Federal members is central to 
the ITACG's success. I will speak more specifically to the Council's 
actions later in this testimony, but let me address two efforts 
currently underway. We are working to:
  <bullet> Harmonize DHS and FBI sponsorship programs so that State and 
        local organizations do not have to pay a financial price for 
        sending their officials to serve in the ITACG, and
  <bullet> Expand the ITACG's State, local, and tribal representation 
        to include a broader set of homeland security disciplines than 
        are presently represented, to include tribal, fire & safety, 
        health, law enforcement intelligence analysis, and State-level 
        homeland security management.
    It remains challenging to find sufficient numbers of officials 
willing to go through the required security clearance processing and 
then uproot their families for a year or more to move to Washington. We 
rely heavily on the State, local, and tribal professional associations 
represented on the Advisory Council to identify highly qualified 
candidates for the ITACG.
                 standing up the itacg element at nctc
    I sent, in close partnership with the FBI, several senior 
intelligence officials over to NCTC to co-lead (with the FBI) an 
Implementation Team to lay the foundations for the ITACG--well before 
policies to govern the ITACG were agreed upon. My staff explored 
potential ITACG configurations, roles, and responsibilities with their 
NCTC hosts as the ITACG concept was submitted to interagency, 
administration and congressional reviews. The Implementation Team's 
hard work resulted in the ITACG reaching initial operating capability 
in the first of this year when four State and local law enforcement 
representatives arrived to begin their tour of duty within NCTC.
    Today the ITACG consists of 10 staff officers: the DHS Director, an 
FBI Deputy, four State and local law enforcement officials, two 
counterterrorism analysts from DHS and the FBI, and two support 
contractors with significant experience in State and local law 
enforcement and counterterrorism intelligence. I have provided two of 
my most capable intelligence officers to the ITACG, one a former deputy 
division manager, and the other a highly qualified senior intelligence 
analyst. Together, they bring valuable experience in the analysis and 
coordination of terrorism-related products intended for release to 
State, local, and tribal customers. They are working seamlessly under 
NCTC management with their FBI and State and local partners.
                              itacg impact
    In my budget presentation last month, I noted the ITACG's evolving 
practice of scanning incoming current reporting, terrorism-related 
events, and finished assessments for items of potential value to 
domestic homeland security officials. I am pleased to report that these 
efforts are bearing real fruit--not only by identifying items with 
homeland interest--but also by helping DHS, FBI, and NCTC tailor our 
respective and joint products to meet State, local and tribal 
officials' needs, fulfilling its mandate in the National Strategy for 
Information Sharing, pp. 18-19.
    From October 2007 through February 2008 the ITACG did an initial 
familiarization review of more than 34,000 intelligence reports and 
products at all classification levels--most with no bearing on the 
homeland. The ITACG worked to get a number of highly classified 
products relating to the Homeland downgraded for release to domestic 
customers at the SECRET and UNCLASSIFIED levels, developing a 
production ``packaging'' process at NCTC for routine downgrading and 
publication of such products to the NCTC ONLINE-SECRET (NOL-S) web 
repository, and whenever possible, to the UNCLASSIFIED level to 
facilitate the widest possible distribution. Please note that the bulk 
of those 34,000 reports and products are routinely available to State 
and local officials over HSDN and NOL-S. The ITACG assisted with 
identifying those with homeland impacts that could be further 
downgraded for wider release. I cannot overemphasize the importance of 
this process--moving information as far down the classification chain 
as possible is of paramount utility to our State, local, and tribal 
customers.
    Over that same period, the ITACG also familiarized itself with 
nearly 2,000 worldwide threat reports concerning U.S. interests, 
identifying 77 of these as possible threats to the homeland. Conducting 
further reviews of these potential threats, it worked with NCTC, DHS, 
and FBI to tailor threat characterizations in terms State, local, or 
tribal officials could easily interpret, as opposed to the sometimes 
arcane language used by the Federal Intelligence Community. These 
reviews provided marked improvements to joint DHS/FBI advisories and 
assessments on behalf of State, local, and tribal users.
    Finally, the ITACG has drafted a ``tagline'' to indicate to State, 
local, and tribal audiences those Federal terrorism products that have 
received ITACG review and coordination with respect to their concerns. 
The ITACG Advisory Council is currently reviewing the proposed language 
for inclusion on affected Federal products.
       integrating the itacg into community production processes
    Today the ITACG reviews all homeland threat reporting and 
terrorism-related assessments produced by NCTC, DHS, and FBI. We are 
actively working together on how best to interact with the ITACG to 
factor in its perspectives for joint DHS/FBI or single-agency (but 
still coordinated) time-sensitive threat notifications and assessments, 
as well as a range of other terrorism-related products we routinely 
provide to State, local, tribal, and critical infrastructure security 
officials.
    We are guided in this effort by the seven requirements for ITACG 
operations set forth in the National Strategy for Information Sharing:
    1. enabling a ``federally coordinated'' perspective,
    2. providing advice, counsel, and subject matter expertise,
    3. enabling production of clear, relevant ``federally coordinated'' 
        information in a timely manner,
    4. facilitating ``situation awareness'' reporting on events with 
        potential terrorism aspects,
    5. ensuring all such information is rendered in a usable format,
    6. informing and shaping Intelligence Community products, and
    7. facilitating the production and posting by NCTC of ``federally 
        coordinated'' terrorism-related information.
           the itacg advisory council is key to itacg success
    On behalf of the Secretary, I am pleased to chair the ITACG 
Advisory Council, which has nine Federal members of the 
counterterrorism community, and 10 State, local, and tribal members 
representing a wide array of security or law enforcement professional 
associations. I have assembled the Council at NCTC twice in the last 3 
months, and hosted a teleconference this past week to discuss widening 
its efforts to recruit additional State, local, and tribal disciplines 
into the ITACG. In addition, I have already scheduled three more 
Council meetings at NCTC for this fiscal year. We will meet as often as 
necessary during this first year of the ITACG's startup.
    I have set an ambitious agenda for the Council, centering on our 
discussion of a number of priority challenges that the ITACG faces--
from recruitment and support of State, local, and tribal personnel--to 
establishing a formal mechanism and feedback process for State, local, 
and tribal customers, who are key to strengthening the ITACG's value 
and evaluating its success.
                             dissemination
    While DHS and FBI continue to have extensive department-specific 
dissemination practices for sharing law-enforcement or regulatory 
information with their respective constituencies, DHS, FBI and NCTC, in 
consultation with our partners in the ISE, are rapidly converging to 
unify information-sharing for general purpose terrorism-related 
products at both the classified and unclassified levels. We are also 
equipping our domestic partners at record levels to join in this new 
way of doing business.
                          classified products
    While working through the ITACG implementation, it became 
imperative that we provide a central online repository for classified 
products that State, local, and tribal officials--once properly 
accredited--could access in a timely and reliable fashion. Rather than 
create a competing online repository on the DHS network, I have 
partnered with NCTC, in coordination with the FBI, to endorse the use 
of NCTC Online-SECRET (NOL-S) as the principal venue for hosting 
classified intelligence materials intended to reach our State, local, 
and tribal partners. Today all SECRET level terrorism-related products 
written by NCTC, DHS, or FBI and issued as single-agency, joint, or 
fully-vetted community products are posted to the NOL-S repository. 
Please note that regardless of whether a product is issued singly, 
jointly, or by the full community--all products destined for State, 
local and tribal audiences are increasingly coordinated among all 
principal agencies--with ITACG assistance.
    Furthermore, NOL-S is increasingly accessible by State, local, and 
tribal homeland security professionals over the DHS-provided Homeland 
Secure Data Network (HSDN) and the FBI's FBINET. DHS is on track to 
deploy HSDN to 41 State and local fusion centers (SLFCs) by the end of 
fiscal year 2008. HSDN provides SLFCs with a critical capability not 
only to access federally supplied threat information, but also as a 
means to communicate with each other in a classified setting--thus 
contributing to the vision of establishing a national network of fusion 
centers called for in the President's National Strategy for Information 
Sharing.
                         unclassified products
    The ITACG also continues to drive community producers to prepare 
appropriate terrorism-related materials at the UNCLASSIFIED level 
whenever possible. That way they can be posted not only to NOL-S, but 
also to the DHS-hosted Homeland Security State and Local Intelligence 
Community of Interest (HS SLIC) Web repository--an unclassified 
intelligence component of the Homeland Security Information Network 
(HSIN)--as well as transmitted over other channels to State, local, and 
tribal officials. As you are also aware, terrorism-related materials at 
the UNCLASSIFIED level are also accessible on the FBI's Law Enforcement 
Online (LEO) information-sharing data repository.
    This year, the HS SLIC has experienced remarkable growth with large 
numbers of State and local fusion centers joining in the community. As 
of February 2008, 41 States have signed up and are actively using this 
community to share law enforcement intelligence, terrorism, emergency 
response, and other security information between and among themselves, 
DHS and other Federal partners--including the Department of Interior, 
Drug Enforcement Administration, FBI, U.S. Northern Command, and the 
ITACG.
    All DHS and FBI unclassified intelligence reports are posted to the 
HS SLIC community of interest repository--providing a unified location 
where registered security officials can reliably access UNCLASSIFIED 
Federal products relating to terrorism threats to the homeland.
                               conclusion
    In closing, I want to convey to you my personal sense of urgency 
and commitment to the mission we all share, that of ensuring that the 
Federal Government vigorously provides actionable intelligence to 
State, local, and tribal officials who must address threats to the 
homeland at the local level. I share your commitment to the ITACG--and 
place a high priority on rallying support for this new element--for 
which I have opened every door at DHS. I have also made a significant 
investment in the operations and success of the Advisory Council--where 
I meet regularly with State, local, and tribal officials to further 
more seamless information-sharing practices. I take that relationship 
and their trust very seriously.
    None of us--whether in Federal, State, local or tribal service--can 
unilaterally predict the threat, warn our stakeholders, and take action 
to mitigate the risks. Our success depends on our ability to work 
together, while never losing sight of the privacy and civil liberties 
of the public that we are sworn to protect. Besieged by constant threat 
from foreign and domestic actors, we require vigilance and shared 
awareness to secure our Nation. Our success will depend on how 
relentlessly we collaborate, a calling to which I remain singularly 
dedicated.
    Thank you and I look forward to your questions.

    Ms. Harman. Thank you, Mr. Allen.
    We now recognize Mr. Murphy to summarize his testimony for 
5 minutes.

 STATEMENT OF WAYNE M. MURPHY, ASSISTANT DIRECTOR, DIRECTORATE 
OF INTELLIGENCE, FEDERAL BUREAU OF INVESTIGATION, DEPARTMENT OF 
                            JUSTICE

    Mr. Murphy. Madam Chair Harman and Ranking Member Reichert, 
thank you for this opportunity to appear before you today and 
provide a report on our shared progress toward strengthening 
the security of our Nation by increasingly seamless integration 
between Federal, State, local and tribal partners, most 
recently in the stand-up of the ITACG.
    It is a privilege for me to carry this responsibility on 
behalf of the Federal Bureau of Investigation, but having been 
part of this effort since it was first conceived, I know that 
any progress we have made to date has been the result of a 
professional working partnership with my colleagues on this 
panel and the agencies that they represent.
    I believe the ITACG is well postured to meet both the 
letter and the spirit of the direction we have received from 
the president and from this Congress. The ITACG is already 
demonstrating a potential beyond that purposeful intent. In my 
view, it is an effective and complementary adjunct to other 
positive developments in the information-sharing environment.
    The path to where we are today has included its share of 
debates and disagreements, but I believe that dialog was a 
necessary element of building the way forward, and a way 
forward that would take hold. In the end, the path forward was 
illuminated by the clear direction from the president and from 
this Congress, in particular, through the work of this 
subcommittee and the 9/11 Act of 2007.
    Backed by your continued support and persistent attention 
to this important issue, I am confident that we are on a path 
to empower the ITACG in a way that will make it relevant to the 
fight, in a way that will add value and not just volume, in a 
way that will extend full and necessary access without 
compromising the independence of State, local and tribal 
members of the group, and in a way that preserves the 
responsibility that all of us share to protect the rights and 
civil liberties of the American people.
    That dialog and the stand-up of the ITACG has created an 
opportunity for all of us to move past anecdotes and 
preconceived notions, into a live, operationally relevant 
laboratory where the State, local and tribal point of view 
intersects directly with the corpus of counterterrorism 
information held by the U.S. Government.
    Although the National Counterterrorism Center only recently 
shifted from the role of host to owner of the ITACG, I want to 
commend the leadership and proactive spirit with which the 
ITACG has been embraced. Acting Director Leiter has taken 
affirmative steps to extend access and set expectations from 
the very top of his organization that resulted in an 
extraordinarily rapid assimilation of the team.
    He has given ITACG a seat in one of the intelligence 
community's most important forums, the Daily Counterterrorism 
Conference. Within this forum, they can gain an awareness and 
context on threats at the same time those perspectives are 
being shared with him for the first time. This same forum sets 
much of the community's daily agenda for the counterterrorism 
issue, and now by extension through the ITACG, we have the 
potential to better synchronize the respective focus between 
national and local response.
    In my view, the ITACG advisory council chaired by Under 
Secretary Allen is an effective and open forum for the exchange 
of ideas, the timely approval of decisions, and the necessary 
pressure to impart urgency for participating members to deliver 
on expectations. One need only look at the diversity of 
membership, and in particular the names of the individuals 
representing State and local interests, to see that there are 
no shrinking violets on the advisory group.
    Although the work of the ITACG is only a few months 
underway, the council is already taking up lessons learned from 
the stand-up as they relate to recruiting and identifying State 
and local and tribal members, obtaining their security 
clearances in a timely manner, addressing administrative 
requirements for their assignment, and the best way in which to 
receive feedback on the work of this important group.
    Similarly, the Office of the Program Manager for the 
information-sharing environment, and in particular Ambassador 
McNamara, has been an objective and appropriately forceful 
voice in moving this important step toward real results. I am 
proud of the role and contribution of the FBI since this idea 
first surfaced, but I am in no way complacent. Much remains to 
be done, but I believe there is a will and a spirit that will 
sustain the current momentum.
    While measures of access, numbers of reports, and the 
impact of those reports will be a necessary and early dimension 
in demonstrating the value for this investment, I believe in 
the end the most important measure of success for the ITACG 
will be the extent to which their work has an impact in 
shifting mindsets and culture throughout the information-
sharing environment.
    When the practices enabled through the ITACG become 
systemic, when we no longer have to ask the question ``did the 
ITACG see this,'' because we know the dialog and exchange is 
full and pervasive, then we will have achieved the level of 
success matched to the challenge that we face. This will take 
time, but it is a goal I believe we should continue to aspire 
toward.
    In closing, let me again thank this committee for your 
leadership, creativity and persistence in setting high 
standards and accountability for this unprecedented 
undertaking. Let me also thank my colleagues here for working 
to reflect the spirit that is expected of all of us by the 
citizens we are sworn to serve and protect. The FBI stands 
ready to continue to do its part to honor by our actions the 
memory of those who have sacrificed so much since September 11, 
2001.
    Thank you, and I look forward to continuing our engagement.
    [The statement of Mr. Murphy follows:]
                 Prepared Statement of Wayne M. Murphy
                             March 13, 2008
    Chair Harman, Ranking Member Reichert, and Members of the 
subcommittee, thank you for this opportunity to appear before you to 
provide a report on our shared progress to strengthen the security of 
our Nation by increasingly seamless integration between the Federal 
Government and our State, local and tribal partners, most recently in 
the stand up of the Interagency Threat Assessment and Coordination 
Group or ``ITACG''.
    It is a privilege for me to carry this responsibility on behalf of 
the FBI, but having been part of this effort since it was first 
conceived, I know that any progress we have made has been the result of 
a professional working partnership with my colleagues on this panel: 
the Program Manager for the Information Sharing Environment, Ambassador 
Thomas E. McNamara, Acting Director for the National Counterterrorism 
Center (NCTC), Mr. Michael Leiter and Under Secretary for Intelligence 
and Analysis at the Department of Homeland Security, Mr. Charlie Allen.
    I believe the Interagency Threat Assessment and Coordination Group 
(ITACG) is well-postured to meet the letter and spirit of the direction 
we have received from the President and this Congress. The ITACG is 
already demonstrating a potential beyond that purposeful intent, and in 
my view is an effective and complimentary adjunct to other positive 
developments in the information-sharing environment.
    The path to where we are today has included its share of debates 
and disagreements, but in my view that dialog was a necessary element 
of building a way forward that would take hold. That dialog helped 
clarify and strengthen our shared resolve to empower the ITACG in a way 
that would make it relevant to the fight; in a way that would add value 
and not just volume; in a way that extended full and necessary access 
without compromising the independence of the State, local and tribal 
members of the group, and in a way that preserves the responsibility we 
all share to protect the rights and civil liberties of the American 
people. That dialog and the stand-up of the ITACG has created an 
opportunity to move past anecdotes and preconceived notions into a 
live, operationally relevant laboratory where the State, local and 
tribal point of view intersects directly with the corpus of 
counterterrorism information held by the U.S. Government.
    Most importantly, I believe the stand-up of the ITACG and the 
structuring of its roles and responsibilities requires striking the 
right balance between enabling information sharing without building 
bureaucracy or layers that would only cloud an already complex and 
dynamic environment. While measures of access, numbers of reports, and 
the impact of those reports will be a necessary and early dimension of 
demonstrating value for investment, I believe the most important 
measure of success for the ITACG will be the extent to which their work 
has an impact in shifting mindsets and culture throughout the 
information-sharing environment. When the practices enabled through the 
ITACG become systemic, when we no longer have to ask ``did the ITACG 
chop on this'' because we know the dialog and exchange is full and 
pervasive, then we will have achieved the level of success that is 
matched to the challenges we face. This will take time, but it is a 
goal I believe we should continually aspire toward.
    As you have heard from my colleagues, the access of ITACG personnel 
is well-matched to their mission. They have the ability, through that 
access, to discover and surface items of interest; to impact 
priorities; to shape the course of a developing narrative; and to 
revisit previously-published information--including information 
produced by intelligence agencies independent of NCTC involvement.
    NCTC leadership has given ITACG a seat in one of the Intelligence 
Community's most important forums--the daily counterterrorism video 
conference. Within this forum ITACG can gain awareness and context on 
threats and trends at the same time those perspectives are being shared 
with the Director of NCTC. This same forum sets much of the community's 
daily agenda for counterterrorism matters and now--by extension through 
the ITACG--we have the potential to better synchronize the respective 
focus between the national and local response.
    The ITACG has also impacted and informed more effective means to 
make information available to the constituents they represent. Acting 
Director Leiter highlights in his statement a number of actions that 
will continue to enhance the availability of information that has been 
highlighted or shaped by the ITACG. This extends to providing 
information that is releasable and actionable for law enforcement and 
public safety officials on the street.
    In my view the ITACG Advisory Council, chaired by Under Secretary 
Allen, is an effective and open forum for the exchange of ideas, the 
timely approval of decisions and the necessary pressure to impart 
urgency for participating members to deliver on expectations. Although 
the work of the ITACG is only a few months underway, the Council is 
already taking up lessons learned from the stand-up as they relate to 
recruiting and identifying State, local and tribal members, obtaining 
their security clearances in a timely manner; addressing the 
administrative requirements of their assignment to the ITACG and how 
best to receive feedback. There are a number of other issues that need 
to be addressed, many of them captured well in the statements by Acting 
Director Leiter and Under Secretary Allen. I believe we have the forum 
and mindset to address them expeditiously and in keeping with the goals 
of the ITACG. The FBI is committed to working in the established forum 
to resolve these issues in a manner that provides clarity, but does not 
inhibit the need for flexibility.
    A secondary benefit of the activities related to the stand-up and 
sustenance of the ITACG has been the forcing function and forums this 
has created to work through issues that are relevant in other 
information-sharing domains. The ITACG is clarifying the way forward in 
other areas, like our goal for a common approach to integration with 
Fusion Centers.
    In closing, let me again thank this committee for your leadership, 
creativity and persistence in setting high standards of accountability 
for this unprecedented undertaking. Let me also thank my colleagues 
here for working to reflect the spirit that is expected of all of us by 
the citizens we are sworn to serve and protect. The FBI stands ready to 
continue to do its part to honor, by our actions, the memory of those 
who have sacrificed so much since September 11, 2001.
    I look forward to our continued engagement.

    Ms. Harman. Thank you all for what was excellent testimony.
    I surely agree with you, Mr. Murphy, that we should keep 
our eye on two things: No. 1, those who have made the ultimate 
sacrifice to keep us safe; and No. 2, the American people who 
could be in harm's way if we don't get this right. So I thank 
you for that.
    I also thank you for your ability to compliment everybody 
else. It is rare to see that these days in this toxic town, and 
I am sure they appreciate it, and I appreciate it.
    Listening to the four of you, I couldn't help recall the 
movie ``Meet the Parents.'' Here you are. You are the parents 
of a new information-sharing culture. You are a lot less 
dysfunctional than the other parents in the movie, but I want 
to be sure you have met the grandparents. Here we are. Grandpa 
over here has six grandchildren and grandma has three, 
hopefully more to come. But at any rate, we are all in this 
together. We are one family, and the consequences of failure 
are absolutely huge. Let me just say that again. The 
consequences of failure are absolutely huge.
    There are folks out there--we all know about this--plotting 
day and night to cause grievous harm to America. We are not 
sure what community it will be in next, but it could be in 
almost any community. If we don't share information--accurate, 
actionable and timely information--in real time with the folks 
who are in those communities, they won't know what to look for 
or what to do. I cannot stress that more than I have, and I 
have stressed it to each of you over and over and over again. I 
know you agree with me. So please keep this going and make 
certain that anything more that can be done is done.
    Mr. Leiter. I really appreciated your testimony about the 
contribution of some of these States and locals to the ITACG 
products, especially the one on ricin. It makes a lot of sense 
hearing about that. You know, a view from 30,000 feet is not 
going to be very helpful, so you do need people who walk the 
beat telling you exactly what the product should say so that 
they know, if they are in some hotel room in their communities, 
what ricin looks like, and can make the appropriate calls, and 
can protect themselves against it, so that was a useful piece 
of information.
    My question to all of you is, you have talked about sharing 
down, vertical sharing down of products that you are producing. 
Give us some examples of sharing up, and how you can 
incorporate that meaningfully in the products you produce. Let 
me just give you one example of sharing up. It didn't come 
directly to you, but the Torrance Police Department a few years 
back--you all know about this--connected the dots about a 
string of gas station robberies and figured out that something 
must be going on, some folks must be trying to fund something.
    They got the appropriate warrants and checked out the 
apartment of some of these guys, and guess what? They found a 
terror cell in a community in my congressional district. That 
terrorist cell wasn't fully operational, but certainly had 
casing drawings and plans to cause harm to military recruiting 
centers and synagogues. A string of arrests was made and it 
goes forward.
    But at any rate, that is an example to me of sharing up. I 
think we should have more on the record about the importance of 
this vertical sharing starting at the State and local level and 
going up.
    Mr. Allen.
    Mr. Allen. Yes, let me just give one example, which I think 
was remarkable. It was last August and September where the 
Washington Joint Assessment Center out in Seattle--Ranking 
Member Reichert knows it well--citizens reported seeing what 
they thought were surveillance activity on ferries in the Puget 
Sound. The center there wrote an extraordinarily good 
assessment which they sent to the Federal level which we then 
used in finished intelligence which Secretary Chertoff used at 
the highest levels of government.
    In response, both Federal officials and the FBI were 
engaged in that, along with other teams from the operating 
components of DHS. State and local law enforcement for a period 
of days surged into the Puget Sound. The Coast Guard in 
particular was very active. It was an example where I think 
pre-surveillance was occurring on the ferries out in the Puget 
Sound, and I think that is where a State fusion center did a 
remarkable job of assessing what was going on, and then the 
Federal Government became aware of it and responded. The 
secretary used it again at the highest levels of government. It 
is a stunning example of the way things ought to be.
    Ms. Harman. Thank you.
    Other comments? Mr. Leiter.
    Mr. Leiter. Chairwoman Harman, I would simply note that we 
do think that the ITACG is quite important for this because 
their perspective on what could be there will help influence 
our analysts to think about it and turn to DHS and FBI or the 
JTTF's fusion centers to try to get that information.
    The two are interrelated in that what goes up, goes down, 
and then what comes back up. State and local officers need to 
be informed about threats and the procedures and the tactics 
that we see out there, so they know what to look for. I know I 
have had this conversation with you. I use the anecdote of the 
early days of the fight against methamphetamines. Before 
officers knew what to look for, they might well walk into a 
methamphetamine lab, see something, and not know what it was.
    Over time, as that fight against methamphetamine has 
progressed, they have been informed, and now if they walk in 
the house, they know like that, and they can talk to their 
narcotics people and the DEA and stop that. In the same way, we 
have to get that information down, so when the officer walks in 
or the fire official walks in, they know what should get 
reported back up.
    Ms. Harman. Thank you.
    Any other comments? Mr. Murphy.
    Mr. Murphy. My colleagues have done an excellent job 
covering the areas that I think represent that sharing up. 
Certainly, a fundamental foundational component of our 
relationships in the JTTFs and in the fusion centers is about 
taking advantage of the access that we have to information and 
perspectives from the State and local environment, and the 
national data exchange system, which the FBI is standing up 
will enhance that even further to provide from department to 
department the opportunity for the kind of discovery you talked 
about.
    I think one of the key areas that we need to focus on is 
communicating back the value and the results of the information 
that is provided by State and locals so that they have a 
message they can reinforce to their leadership at the local 
government level about the important contribution they are 
making to the larger fight.
    Ms. Harman. Thank you. Excellent comments.
    Ambassador McNamara.
    Mr. McNamara. Let me not necessarily move up to the 30,000-
feet level, but maybe 500 feet up. Instead of talking about 
specific examples, I want to talk about a tool that is now in 
the toolbox of the local police to enable them to share 
information up much better. It is known generally as SAR, which 
is suspicious activity reporting.
    Until recently, every police agency around the country 
reported their SARs in their own fashion. What we have just 
done, and I issued the document just a few weeks back, is to 
issue a set of standards that were arrived at by consultation 
with Federal, State and local law enforcement authorities, 
mostly police, but also including prosecutors and others, to 
establish a single standard for doing those reports.
    So what were thousands of snowflakes can now be turned into 
a snowball and maybe even a snowman. That is not necessarily a 
specific example of moving the information up, but what it is 
is a tool that now allows us to bring that information all the 
way up, for example, to the people that are working in the 
ITACG. That is something that the information-sharing 
environment is designed to do, and I think it is a good example 
of how we are going about doing it.
    Ms. Harman. Thank you very much.
    I now yield to Mr. Reichert for questions. We will have a 
second round of questions following his questions.
    Mr. Reichert. Thank you, Madam Chair.
    Thank you again for your testimony.
    I do like the analogy of the four of you as parents of this 
effort. I have actually taken some notes here kind of wondering 
along those lines. The four of you are really the leaders of 
this effort. I know, as the sheriff, when I was the sheriff 
with 1,100 employees and you are trying to make a change within 
an organization even that small, and you give directives to 
your lieutenants, your chiefs, your majors, et cetera down the 
chain of command, that sometimes there is resistance within the 
organization that you represent.
    I am just curious, as you are trying to manage this change, 
because I do agree with Mr. Murphy, it is a cultural change 
that is sometimes overwhelming to even think about. I am 
wondering what, if any, resistance you are experiencing within 
a specific organization, especially, Mr. Murphy, in the FBI. I 
do know that--well, why don't we answer that question first?
    Mr. Murphy. Thank you for that question. It made me think 
about really the issue for me, and I am sure for my colleagues 
on the panel, it goes beyond mere leadership. We can be 
persistent in our message. We can be persistent in our 
expectations, but given the size and scope of our organizations 
and really the transcendent nature of what we are asking them 
to change toward in terms of way of thinking, I think it is 
incumbent upon us, particularly in this early period, to follow 
our direction all the way down to the point of delivery, and to 
ensure that our expectations are actually being met on the 
frontlines.
    You can communicate a message, but to actually follow up on 
a persistent basis, much like this subcommittee has done with 
us, is a reinforcing message that ingrains into the groove of 
any bureaucracy, this is real, this is going to stick around 
for a long time, and the boss is paying attention to it at a 
level of detail that has us all jumping around when they show 
up in the office. So I think that is a very important point, to 
go beyond mere leadership on an issue of this importance and to 
make sure we ingrain it in.
    I would say that the biggest challenges that we face are 
really about overcoming the anecdotes and urban legends that 
crop up when you do something new like this, that the idea of 
sharing information will compromise our ability to operate 
effectively; that sharing information could affect future 
investigations; that there are ``legal'' impediments to certain 
sharings of information.
    The early engagement in this process of people who 
understand privacy issues, people who understand authorities 
that relate to information-sharing has given us really a list 
by which, or a set of guidelines by which we can very quickly 
put those anecdotes to rest. But you can't assume that if you 
have cleared the message once it is going to stick every time, 
and that is where that reinforcement comes through.
    I have not found any institutional impediments. In many 
ways, this is a reinforcement of a relationship that we have 
always valued with State, local and tribal partners. It has not 
always been a perfect relationship, and that is why we can't be 
complacent about the nature of the exchange that we have.
    Mr. Reichert. Thank you.
    Anyone else.
    Mr. Leiter. Yes, sir, if I could speak to that? I would 
agree. I believe the institutional impediments within the 
Department have lessened significantly. I view my role as, 
first, of course supporting the secretary and the Department, 
but of equal level I think is supporting State and local. Under 
the Homeland Security Act, we are directed to do that, so that 
is very important.
    Third, we are certainly part of the intelligence community, 
but we really are working now in my role as the under secretary 
with the operating components to ensure that they understand 
the criticality, because they have a lot of data to help 
support us and State and local information sharing. Many of 
them are very law enforcement-oriented, and have not 
classically done this necessarily except on a case-by-case 
basis.
    So I believe that a whole new transformation is occurring 
in the Department on how we share at State and local levels, 
and we are going to continue to pursue that. As Wayne points 
out, it is not overnight, but it is occurring and I see it, as 
I said, over the last 1\1/2\ years, I think there has been a 
real change in the Department.
    Mr. Reichert. Let me just say that, coming from the 
sheriffs' organization, they can be difficult sometimes. There 
are 3,100 sheriffs across the country, and then add the police 
chiefs to that, and they certainly have their views on how 
things should work. So I know there is some work there that 
they have to do, too. It is a two-sided effort here.
    The other important piece, if I could just mention it very 
quickly, are the personalities involved. I remember working a 
task force years ago, a major case, and the agents that came in 
from all over had a great relationship with the current staff 
of ATF--Calvin Crenshaw and other agents in Federal agencies, 
especially in the Northwest area. In working the case, there 
were agents that came in from all over the United States, and 
you connected with certain people who were there as 
ambassadors, really, and others were not. They were just there.
    I think that as you look at how you use people and 
personnel, it really is key on the people that you choose to 
send out to interact with locals. On the other side, it is key, 
from the sheriff's point of view and the police chiefs as to 
who they put in those positions.
    One more point, from my view of this effort over the years, 
it is hard to make progress when the Federal Government 
transfers their employees so much because they don't become 
integrated into the community effort and they don't become a 
part of the community, and therefore trust is very hard to 
build. So when SACs come in and they move every 2 years, they 
can't build the relationship with the police chiefs and the 
sheriffs.
    When agents come in and they begin to build a relationship 
with investigators in the fusion centers or in their efforts to 
help in other white-collar crime efforts, et cetera, in 
gathering intelligence. In working with our sheriff's office 
intel when I was the sheriff, there were people moving in and 
out. It makes it very difficult. So just something for you to 
know from my point of view, and I am sure it is not the first 
time that you have heard it.
    I will yield, and get back to you on some other questions I 
have in the second round.
    Thank you, Madam Chair.
    Ms. Harman. Thank you, Mr. Reichert.
    My questions now are mostly directed to Mr. Leiter. I am 
interested in how you get more good people from State, local 
and tribal agencies into the NCTC, into the ITACG. You 
mentioned that your plan is to get five more in. I think I 
heard you say five more contractors. We are looking for five 
more officers. You are shaking your head, so good. I am glad to 
hear that.
    But how can you do the broadest possible outreach and make 
certain that this program achieves its potential? I mean, let's 
just think about this. You could generate in a short period of 
time hundreds of ambassadors around the countryside who both 
talk about the quality of this Federal effort--that wouldn't 
hurt--but also bring back skills that they didn't have from 
this effort, and contribute to products that reflect their 
perspectives, that are much better than the products you would 
send out otherwise.
    So what I want to know is the mechanics of this. How are 
you going to get as many good people in there as possible? How 
are you going to maximize outreach? If you have a problem with 
desks and pencils, please come here. We will provide some.
    Mr. Leiter. Well, Madam Chair, first, my apologies if I 
misspoke. We currently have four State and local, and then we 
have two contractors augmenting them who have State and local 
experience. We are adding five. We would like to add five State 
and locals. We are not adding contractors to this. We think 
this has to be actual State and local people.
    In terms of how we are going to get them, it has been a 
challenge so far. The good news is that we have worked out some 
of the bureaucratic administrative challenges on the Federal 
end, so now it is simply doing that outreach. I think the 
advisory council is absolutely key. We need the advisory 
council to be the advocates, to go out and help us recruit.
    Frankly, this committee also we need you to be advocates to 
go out and help us recruit them. We need to make sure that the 
people who come are rewarded in their careers when they go back 
to their departments and agencies, just like we need to require 
people who do joint duty within the Federal system. So this 
needs to be an attractive opportunity both financially, but 
also in terms of career.
    In terms of outreach, I think you have a copy as of this 
morning of the trifold that we are sending out to several 
hundred State, local agencies exactly, with a cover letter 
signed by members at this table, explaining what the ITACG 
does. We have representatives from NCTC. My chief deputy who 
works on this is going out to address the fusion center. As you 
know, I am going out to address the Los Angeles Regional 
Intelligence Conference.
    I am also going out 2 days before, and this is just 
coincidence, I am spending the day in Seattle with the 
executive committee of the JTTF there, with the State homeland 
security advisor. NCTC has initiated in conjunction with FBI 
and DHS, working as a tripartite effort, an extensive 
outreach----
    Ms. Harman. We want to commend you for your brilliant 
choice of cities.
    Mr. Leiter. Yes. I am also heading to Las Vegas. We don't 
have any representation there--but to do an effort for all 
three components--DHS, NCTC and FBI--to key locations 
throughout the United States, to sit down with the JTTFs, to 
sit down with the fusion centers, the homeland security 
advisors, explain what we do, and also explain how their 
principal contacts remain DHS and FBI.
    Ms. Harman. Thank you.
    Does anyone else want to comment on this?
    Mr. Allen.
    Mr. Allen. I would just like to say in the teleconference 
we held last week with the ITACG advisory council, it was 
remarkable how all of the 10 people representing the State and 
local officials, people like Russ Porter who represents the 
Global Justice Criminal Intelligence Coordinating Council, 
people like Sheriff Richard Stanek, who represents major county 
sheriffs' associations--all agreed that they would work through 
their associations to help find and recruit and bring in highly 
qualified people with these other disciplines like public 
health. We already are identifying someone who will represent 
the tribals.
    So I think in many respects--and Jim McMahon, who is with 
the International Association of Chiefs of Police--
extraordinarily active in this advisory council. So I think we 
are on the right track. We have just now got to make it happen.
    Ms. Harman. Thank you.
    Let me just ask another follow-up question, and then I will 
yield to Mr. Reichert. I am looking at this handout. On the 
back it says intelligence products, and lists a number of 
networks. It says, products up to the secret classification can 
be accessed via NOLS, DHS, FBINet, et cetera. Then there is a 
list of sensitive, but unclassified networks. My question is, 
how do you navigate this if you are a cop on the beat and you 
don't have a security clearance?
    Mr. Leiter. Well, if you have no security clearance, you 
are fundamentally going to rely on LEO and HSIN, and defer to 
my colleagues. But the important thing on the secret network 
is, as long as they go to NCTC online, we have worked with FBI, 
DHS, and the Department of Defense, that they just have to have 
the connection, and that is their Google site for intelligence. 
It will have all of the intelligence.
    So all they need to do is get to that site, and we are 
improving that site because frankly it needs improvement. But 
they get there, they do their searches, they can tailor 
searches, and that is where their information will be at the 
secret level.
    Mr. Allen. As far as homeland security, for the 
unclassified areas, that is where we are putting our major 
efforts--right to release, getting it so that we can get the 
kind of in-depth assessments at times from our Critical 
Infrastructure Threat Assessment Division. We write most of 
those at the official use level, so that first responders can 
have those and look at them.
    It goes into depth on issues like chemicals, poisons, other 
kinds of data that would be very helpful at the local levels. 
That is under homeland security information network 
intelligence. We have an intelligence portal on HSIN, which I 
think is starting to work very well. As I said earlier, we have 
weekly conferences at the analytic level just to exchange 
threat information. That is handled at the official use/
unclassified level.
    Ms. Harman. Thank you.
    Mr. Reichert.
    Mr. Reichert. Thank you, Madam Chair.
    One of the questions we have is what other efforts are you 
making outside of ITACG to communicate with the locals? I 
think, Mr. Leiter, you touched on some of those. But the 26 
people that we have assigned across the country to various 
cities, what is their role in working with ITACG and the 
locals? I know they are assigned to fusion centers and joint 
analytical centers, and they have different requests from 
different cities as to what their qualifications might be or 
their use might be, but can you kind of generally describe how 
these 26 people are being integrated into the system?
    Mr. Allen. Those are the 26 officers that I have sent out, 
and by the end of September, we will have them in 35 fusion 
centers. They are very well aware of the ITACG and they are 
well-oriented and -trained on just its role and mission. As 
information and joint advisories flow between Wayne and myself, 
working in coordination, and developing coordinated information 
to flow down there, they know because it is referenced on those 
advisories that this has also been reviewed and commented on as 
necessary and value-added by the ITACG.
    So our officers flow the information out. They handle 
requests for information coming from State and local. When you 
have a remarkable individual like Joel Cullen, my embedded 
officer in Los Angeles, the JRIC there, the Joint Regional 
Intelligence Center, it works very well. He is very much in 
touch with the ITACG on a very frequent basis.
    Mr. Murphy. Similar to DHS, we have an extensive investment 
in the fusion center environment, with personnel in 48 of the 
60 established fusion centers here in the country. It is 195 
FBI personnel who are invested. Again, they are a conduit. They 
are a resource of communicating information about the 
relationship with the ITACG and how we can better service their 
needs as a representative of the Federal Government.
    In many cases in partnership with the DHS, we share our 
presence there. As you know, part of the direction we have 
received in national strategy and in some of the legislation is 
to enhance that environment of the Federal presence within the 
fusion centers. There is a whole separate infrastructure in 
terms of the relationship Charlie and I have, and Ambassador 
McNamara, to developing and building that out.
    This is in addition to the extensive presence that we have 
commingled with State and locals on the joint terrorism task 
forces environment.
    Mr. Reichert. We have been a part of that effort for many 
years, the Joint Terrorism Task Force and the violent criminal 
apprehension team, and some of those other Federal task force 
efforts.
    I really want to compliment all of you on the marriage of 
these DHS personnel, the FBI. The fusion center in Seattle I 
think is a great example of some success there where we have 
not quite reached the Los Angeles level, but I visited there--
--
    Ms. Harman. Keep on dreaming.
    [Laughter.]
    Mr. Reichert. They are truly the model to follow. Seattle, 
I think, is making a great effort. It really is due, I really 
believe, to your efforts in placing people there who are 
committed. So I just wanted to thank you for that. I do see 
some great changes there and some success. There have been some 
little bumps here and there, as we are all going to experience, 
but a great job on that. Thank you.
    Ms. Harman. I, too, want to thank the parents for some 
valuable collaboration and testimony. I think our hearing 
record is quite specific now on some of these issues, where it 
was not in the past. I think there has been real progress. Keep 
it up.
    I also would mention to you that obviously other members 
were not able to come. If they have written questions, I would 
ask you to answer them expeditiously.
    Let me just close on a couple of notes that I think need 
more work. One is our classification system. I know Ambassador 
McNamara shares this. I know our subcommittee shares this. We 
are working on some legislation in this regard, but it is 
difficult for people to get cleared, a reason why we hope that 
these officers you recruit--officers, not contractors--will 
come with clearances, but a reason why we need to make the 
system work better as well. That is one thing.
    The second thing, at least the way I hear it, we have too 
many different ways to communicate information, too many 
networks. We may need them for some specific applications, but 
it should be easier for busy people to log onto one thing--at 
least it seems to me this is true, and this is something we 
heard in many fusion centers, including Los Angeles--to log 
onto one thing and get the data dump they need quickly, to know 
what to look for and know what to do. I think that will still 
take some work as well.
    With that, I want to thank you all for your testimony.
    Hearing no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 11:12 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
